<html>
<title> - ADDRESSING THE NATION'S CYBERSECURITY CHALLENGES: REDUCING VULNERABILITIES REQUIRES STRATEGIC INVESTMENT AND IMMEDIATE ACTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
      ADDRESSING THE NATION'S CYBERSECURITY CHALLENGES: REDUCING 
   VULNERABILITIES REQUIRES STRATEGIC INVESTMENT AND IMMEDIATE ACTION

=======================================================================


                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                       THREATS, CYBERSECURITY AND
                         SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2007

                               __________

                           Serial No. 110-30

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
43-566                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               JAMES R. LANGEVIN, Rhode Island, Chairman

ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    DANIEL E. LUNGREN, California
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
AL GREEN, Texas                      PETER T. KING, New York (Ex 
VACANCY                              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                    Jacob Olcott, Director & Counsel

        Dr. Chris Beck, Senior Advisor for Science & Technology

                       Carla Zamudio-Dolan, Clerk

       Dr. Diane Berry, Minority Senior Professional Staff Member

                                  (II)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable James R. Langevin, a Representative in Congress 
  from the State of Rhode Island, and Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Michael T. McCaul, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology....     4
The Honorable Bob Etheridge, a Representative in Congress from 
  the State of North Carolina....................................    39
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    37

                               Witnesses

Dr. Daniel E. Geer, Jr., Principal, Geer Risk Services, LLC:
  Oral Statement.................................................    11
  Prepared Statement.............................................    14
Dr. James Andrew Lewis, Director and Senior Fellow, Technology 
  and Public Policy Program, center for Strategic and 
  International Studies:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Dr. Douglas Maughan, Program Manager, Cyber Security R&D, 
  Department of Homeland Security, Science and Technology 
  Directorate:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Mr. O. Sami Saydjari, President, Professionals for Cyber Defense 
  Chief Executive Officer, Cyber Defense Agency, LLC:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18

                               Appendixes

Appendix I:  For the Record
  The Honorable Bennie G. Thompson, a Representative in Congress 
    from the State of Mississippi, and Chairman, Committee on 
    Homeland Security, Opening Statement.........................    43
Appendix II:  Selected Major Reports on Cyber Security Research 
  and Development................................................    45


      ADDRESSING THE NATION'S CYBERSECURITY CHALLENGES: REDUCING 
   VULNERABILITIES REQUIRES STRATEGIC INVESTMENT AND IMMEDIATE ACTION

                              ----------                              


                       Wednesday, April 25, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
           Subcommittee on Emerging Threats, Cybersecurity,
                                and Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:11 p.m., in 
room 1539, Longworth House Office Building, Hon. James R. 
Langevin [chairman of the subcommittee], presiding.
    Present: Representatives Langevin, Etheridge, Green and 
McCaul.
    Mr. Langevin. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
Addressing the Nation's Cybersecurity Challenges: Reducing 
Vulnerabilities Requires Strategic Investment and Immediate 
Action.
    Good afternoon, and I want to welcome you to the 
Subcommittee on Emerging Threats, Cybersecurity, and Science 
and Technology hearing on a need to reduce vulnerabilities in 
our national critical infrastructure through investment and 
action. I would like to begin by thanking witnesses who appear 
before us today, and I appreciate your testimony.
    I think that last week was certainly an eye-opening 
experience for many of us up here. We learned that our Federal 
systems, in particular, and privately owned critical 
infrastructure are all extremely vulnerable to hacking. These 
vulnerabilities have significant and dangerous consequences.
    We learned that the Federal Government has little 
situational awareness of what is going on inside our systems. 
We cannot be sure how much information has been lost from our 
Federal systems, and we have no idea if hackers are still 
inside our systems, and we learned that our laws are powerless 
to stop intruders, even if compliance with FISMA does not make 
our systems more secure--I should say even if best compliance 
with FISMA doesn't make our systems more secure.
    Now, this week, we are going to continue our conversation 
from last week to hear about some promising initiatives that 
are designed to reverse this trend of government failure.
    I would like to take the opportunity to particularly thank 
Dr. Maughan for his service to our country in this field. Dr. 
Maughan is leading the cybersecurity research and development 
effort at the Department of Homeland Security Science and 
Technology Directorate. Under his leadership, DHS S&T has 
funded research that has resulted in almost one dozen open 
source and commercial products that provided capabilities such 
as secure thumb drives, root kit detection, worm and 
distributed denial of service detection, defenses against 
phishing, network vulnerability assessment, software analysis 
and security for process control systems.
    His research and development funding is targeting the 
critical problems that threaten the integrity, availability and 
reliability of our networks. Clearly, he plays a vital role in 
securing our natural cyberspace.
    But despite the criticality of this mission and the success 
of the program, I am troubled that this administration 
continues its effort to do what Chairman Thompson calls 
homeland security on the cheap.
    In the last 7 years, more than 20 reports from such 
entities as InfoSec, Research Council, the National Science 
Foundation and the National Institute of Justice, the National 
Security Telecommunications Advisory Committee, the National 
Research Council and the President's Commission on Critical 
Infrastructure Protection have all urged the government to do 
more to drive, discover and deliver new solutions to address 
cyber vulnerabilities. But look at what this administration has 
done to cybersecurity and the research budget at the Department 
of Homeland Security.
    Though this program was slated to receive $22.7 million in 
fiscal year 2007, the actual number I received from S&T showed 
we only funded this program at $13 million. For fiscal year 
2008, the President slashed the budget again, requesting $14.8 
million. This is an $8 million cut from the previous year.
    Just listen to some of the important programs that are 
being cut or reduced in fiscal year 2007: The budget for the 
DNSSEC program, which adds security to the main system, was 
reduced $670,000. The budget for the secure protocols for 
routing infrastructure was zeroed out from its original amount 
of $2.4 million. The budget for the next generation 
cybersecurity technologies program, which addresses a variety 
of topic areas aimed at preventing, protecting against, 
detecting, responding to and recovering from large-scale high-
impact cyber attacks, was reduced $1,625,000.
    Now, I don't know who is responsible for these cuts, Under 
Secretary Cohen or Secretary Chertoff or the White House, but 
reducing this funding is a serious strategic error by this 
administration.
    Just to understand how little we are spending, for the sake 
of comparison, the FBI estimated that, in 2004, that cyber 
crime cost companies worldwide around $400 billion. In 2005, 
the agency estimated that U.S. businesses lost $67 billion. Of 
course, neither of these figures can measure the loss of 
Federal information off our networks which one day may cost us 
our technological advantage over other nations. And those 
figures don't count the potential environmental losses if a 
successful attack on our control systems were to be carried 
out.
    I am deeply troubled by the lack of foresight this 
administration has demonstrated. These efforts are simply too 
important to be cut.
    The Homeland Security Committee is working to demonstrate 
the importance of R&D funding in this administration. In our 
recent authorization bill, we included a provision that would 
increase the funding level for the DHS cybersecurity R&D 
portfolio to $50 million. Democratic efforts over the last 
several years have been endorsed by many notable cyber experts, 
and I appreciate all of their input and their support.
    The tools that will improve or revolutionize our security 
will not just appear overnight. Investment today plants seeds 
for the future. But it is incumbent upon the Federal Government 
to take the leadership role in this effort.
    Again, I want to thank our witnesses for appearing before 
us today, and I look forward to hearing your testimony.

Prepared Opening Statement of the Honorable James R. Langevin, Chairman 
   Subcommittee on Emerging Threats, Cybersecurity, and Science and 
                               Technology

    <bullet> Ladies and gentlemen, welcome to the Subcommittee on 
Emerging Threats, Cybersecurity, Science and Technology hearing on the 
need to reduce vulnerabilities in our national critical infrastructure 
through investment and action.
    <bullet> I'd like to begin by thanking the witnesses who appear 
before us today, and I appreciate your testimony.
    <bullet> I think last week was an eye opening experience for many 
of us up here.
    <bullet> We learned that our federal systems and privately owned 
critical infrastructure are all extremely vulnerable to hacking. These 
vulnerabilities have significant and dangerous consequences.
    <bullet> We learned that the federal government has little 
situational awareness of what is going on inside our systems. We cannot 
be sure how much information has been lost from our federal systems, 
and we have no idea if hackers are still inside our systems.
    <bullet> And we learned that our laws are powerless to stop 
intruders--even the best compliance with FISMA does not make our 
systems more secure.
    <bullet> This week, we're going to continue our conversation from 
last week, and hear about some promising initiatives that are designed 
to reverse this trend of government failure.
    <bullet> I'd like to take the opportunity to particularly thank Dr. 
Maughan (``MAWN'') for his service to our country in this field.
    <bullet> Dr. Maughan is leading the cybersecurity research and 
development effort at the Department of Homeland Security's Science and 
Technology Directorate.
    <bullet> Under his leadership, DHS S&T has funded research has 
resulted in almost one dozen open-source and commercial products that 
provide capabilities such as:
        <bullet> secure thumb drives,
        <bullet> root kit detection,
        <bullet> worm and distributed denial of service detection,
        <bullet> defenses against phishing,
        <bullet> network vulnerability assessment,
        <bullet> software analysis, and
        <bullet> security for process control systems.
    <bullet> His research and development funding is targeting the 
critical problems that threaten the integrity, availability, and 
reliability of our networks. Clearly, he plays a vital role in securing 
our national cyberspace.
    <bullet> But despite the criticality of this mission and the 
success of the program, I am troubled that this Administration 
continues its effort to do what Chairman Thompson calls ``Homeland 
Security on the Cheap.''
    <bullet> In the last seven years, more than 20 reports from such 
entities as the INFOSEC Research Council, the National Science 
Foundation, the National Institute of Justice, the National Security 
Telecommunications Advisory Committee, the National Research Council 
and the President's Commission on Critical Infrastructure Protection 
have all urged the government to do more to drive, discover and deliver 
new solutions to address cyber vulnerabilities.
    <bullet> But look at what this Administration has done to 
cybersecurity and the research budget at the Department of Homeland 
Security.
    <bullet> Though this program was slated to receive $22.7 million 
dollars in FY 2007, the actual numbers I've received from S&T show that 
we are only funding this program at $13 million dollars.
    <bullet> For FY 2008, the President slashed the budget again, 
requesting $14.8 million dollars. This is an $8 million cut from the 
previous year.
    <bullet> Just listen to some of the important programs that are 
being cut or reduced in FY 2007:
        <bullet> The budget for the DNSSEC program--which adds security 
        to the Domain Name System--was reduced $670,000 dollars.
        <bullet> The budget for the Secure Protocols for the Routing 
        Infrastructure was zeroed out from its original amount of $2.4 
        million dollars.
        <bullet> The budget for the Next Generation Cyber Security 
        Technologies program, which addresses a variety of topic areas 
        aimed at preventing, protecting against, detecting, responding 
        to, and recovering from large-scale, high-impact cyber attacks 
        was reduced $1.625 million dollars.
    <bullet> Now I don't know who is responsible for these cuts--Under 
Secretary Cohen, or Secretary Chertoff, or the White House--but 
reducing this funding is a serious strategic error by this 
Administration.
    <bullet> Just to understand how little we're spending for the sake 
of comparison, the FBI estimated in 2004 that cybercrime cost companies 
worldwide around $400 billion dollars. In 2005, the agency estimated 
that U.S. businesses lost $67 billion dollars.
    <bullet> Of course, neither of these figures can measure the loss 
of federal information off of our networks, which may one day cost us 
our technological advantage over other nations.
    <bullet> And those figures also don't count the potential 
environmental losses if a successful attack on our control systems is 
carried out.
    <bullet> I am deeply troubled by the lack of foresight that this 
Administration has demonstrated. These efforts are simply too important 
to be cut.
    <bullet> The Homeland Security Committee is working to demonstrate 
the importance of R&D funding to this Administration.
    <bullet> In our recent authorization bill, we included a provision 
that would increase the funding level for the DHS cybersecurity R&D 
portfolio to $50 million dollars.
    <bullet> Democratic efforts over the last several years have been 
endorsed by many notable cyber experts, and I appreciate all of this 
support.
    <bullet> Ladies and gentlemen, the tools that will improve or 
revolutionize our security will not just appear overnight. Investment 
today plants seeds for the future, but it is incumbent upon the Federal 
government to take the leadership role in this effort.
    <bullet> I thank the witnesses for appearing before us today and 
look forward to their testimony.

    Mr. Langevin. It is now my pleasure to recognize the 
ranking member, my partner in this effort in the subcommittee, 
the gentleman from Texas, Mr. McCaul, for purposes of an 
opening statement.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to commend you again for holding this set of 
hearings on cybersecurity, which is a very important issue 
that, in my view, has been overlooked to a large extent since 
September 11th. Last week, we heard from several government 
agencies about their experiences with hackers breaking into 
their networks. It is a serious problem, and it is happening 
more often than we realize. As I have said before, I believe a 
cyber attack could be at least if not more devastating to our 
country than a weapon of mass destruction.
    Unfortunately, right now, we are not doing what we need to 
do to defend ourselves from this threat. Today, we focus on how 
we respond to these attacks and how we develop the tools and 
procedures to protect the information upon which our Nation 
depends. Securing our networks may not get as much attention as 
going to war, but it is just as important when we consider the 
aspect of cyber warfare and the lack of our preparedness.
    We have gathered some of the best minds here today in this 
country to discuss how we as a country should respond to this 
challenge of defending our information systems, and I look 
forward to their testimony.
    After our hearing last week, I met with a number of CEOs of 
leading cybersecurity companies and heard their perspectives on 
this complex issue; and it is clear that we must marshal our 
resources and focus on this problem. We have not provided 
information security the attention it deserves; and with the 
help of experts such as those we have before us here today, I 
believe we can improve the situation and provide the sense of 
urgency to stimulate new progress in securing the Nation's 
information systems.
    I thank the Chair, and I look forward to the testimony.
    Mr. Langevin. I thank the gentleman.
    All the members as they arrive will be allowed to submit, 
according to the committee rules, opening statements for the 
record, and then we will begin to questions after the 
testimony.
    Again, I would like to turn to our panel right now. I want 
to welcome our first panel of witnesses.
    Our first witness, James Lewis, directs CSIS Technology and 
Public Policy Program. He is a senior fellow. Before joining 
CSIS, he was a career diplomat who worked on a range of 
national security issues during his Federal service.
    Our second witness, Dr. Daniel Geer, spent 10 years in 
clinical and research medical computing, followed by 5 years 
running MIT's Project Athena. Afterwards, he worked in the 
research division of the then Digital Equipment Corporation and 
then a series of entrepreneurial endeavors.
    Our third witness is Mr. Sami Saydjari, who is the founder 
and chief executive officer of Cyber Defense Agency, creators 
of systematic defenses for high-value systems against 
aggressive cyber attack. Before founding this cyber defense 
agency, Mr. Saydjari was a senior staff scientist in SRI 
International's Computer Science Laboratory.
    Our fourth witness, Dr. Douglas Maughan, is the Cyber 
Security Program Manager at the Department of Homeland Security 
Science and Technology Directorate. Prior to his appointment at 
DHS, Dr. Maughan was a program manager in the Advanced 
Technology Office of the Defense Advanced Research Projects 
Agency, or DARPA.
    Without objection, the witness's full statements will be 
inserted into the record; and I will now ask each witness to 
summarize the testimony for 5 minutes, beginning with Dr. 
Lewis.
    Before we do that, though, I just wanted to remind everyone 
of the committee rules that testimony is supposed to be 
submitted 48 hours in advance. DHS didn't get their testimony 
in to us until about 7:30 this morning. And I have said before 
I understand DHS and other government departments need to get--
it is not solely on the witness's shoulders to get it in. I 
know OMB has to clear the testimony. But this is happening 
regularly from DHS. And I know Chairman Thompson is doing an 
internal investigation right now to find out what the problem 
is. We just can't do business like this if we don't have 
testimony in a timely fashion.
    Mr. Langevin. With that, I will turn it over to Dr. Lewis 
for your opening statement. Thank you.

 STATEMENT OF JAMES ANDREW LEWIS, DIRECTOR AND SENIOR FELLOW, 
TECHNOLOGY AND PUBLIC POLICY PROGRAM, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Lewis. Thank you, Mr. Chairman. I would like to thank 
the committee for this opportunity to testify.
    You heard last week about the problems at various agencies, 
and I think that testimony highlighted that securing networks 
in the United States for cyber attack is one of the greatest 
challenges we face.
    Cyber security can seem intractable. It is a problem that 
in the past attracted exaggeration, and this combination of 
intractable and exaggeration can sometimes create indifference. 
One way to overcome this indifference is to put cybersecurity 
in the right context.
    Our networks face two sets of risks. The first involves 
espionage. The second involves the potential interruption of 
services, particularly Federal services.
    The most important for me is espionage cybersecurity, is 
primarily a spy story. Cyber espionage poses the greatest 
threat to the U.S. Hacking into computer networks, which are 
vulnerable and likely to remain so for years, provides new low-
cost and low-risk opportunities for foreign intelligence 
agencies. U.S. networks are very vulnerable. Several nations 
have exploited these vulnerabilities to gain valuable 
information. These efforts and our inadequate response have 
damaged national security.
    Unlike cyber espionage, the threat of disruption of 
services remains hypothetical. I would not take too much 
comfort from this, Mr. Chairman. Because if an opponent can 
hack into a network to steal information, they can hack into 
and plant malicious software that could be triggered during a 
crisis. We should assume in the event of a conflict our 
opponents will seek to disrupt our networks and data.
    I would like to point out that, although we have a long 
litany of threats, the question as to whether the U.S. was 
better off before it depended so heavily on computer networks 
can be answered in the negative. The benefits from the greater 
use of networks and computers outweigh the damage from poor 
cyber security. However the porousness of our Federal networks 
reduces those benefits, and greater attention cybersecurity 
would improve both national security and economic performance 
and close off an avenue of asymmetric opportunity for our 
opponents.
    While the U.S. is better off than it was 10 years ago, the 
improvement has been unequally distributed among agencies and 
companies. Some are secure; some are not. There have been 
serious efforts in the national security community to make 
networks more secure, and our most sensitive military and 
intelligence functions are probably secure. Some crucial civil 
networks are also more secure than they were.
    Some efforts to improve cybersecurity have not had the 
benefits we expected. It is possible to hack into a computer 
running software that has met the common criteria, that has the 
common criteria certification, on a network that has met the 
requirements of ISO 19779, the standard for cybersecurity, and 
at an agency that has gotten good marks on FISMA. In other 
words, you can meet all the formal requirements and still be 
vulnerable.
    How do we change this? There is no silver bullet. There is 
no single program that will improve security. The Federal 
Government, for example, is a complex enterprise, with 
thousands of networks and hundreds of thousands of computers. 
No single agency controls this network; and while some Federal 
networks are among the most secure in the world, others are 
routinely penetrated. Some use advanced technologies, others 
are legacy systems dating back years and which, for all 
practical purposes, cannot be secured.
    The core of the problem is organizational. The Department 
of Homeland Security, the Federal CIO Council, and the Office 
of Management and Budget all play a role in securing Federal 
networks. But cybersecurity remains a low priority at many 
agencies.
    Along with a better organization for cybersecurity, the 
U.S. needs a better strategy. We did have a national 
cybersecurity strategy in 2003, but it is outdated. A new 
strategy would have to be more comprehensive, and I would like 
to detail some of the things I think that strategy should 
include.
    First, we would benefit from streamlining government 
processes. There are too many groups and committees, and too 
few of them have any real authority.
    Second, the U.S. can do more to improve agency practices 
for network security. Cybersecurity is still a third-tier 
priority at many agencies. If gangs of foreigners broke into 
the State or Commerce Departments and carried off dozens of 
file cabinets, there would be a huge outcry. When the same 
thing happens in cyberspace, we shrug it off. Agencies need to 
be held accountable for following best practices in network 
security.
    Third, better identity management would improve 
cybersecurity security. As long as it is easy to impersonate 
someone on the Internet, networks will never be secure. HSBD 12 
and Real ID can offer some benefits.
    Fourth, the government should address software assurance. 
We recently did a study at CSIS that looked at how companies 
write software. While most of them do a pretty good job and all 
of them have some very useful practices, the practices aren't 
evenly applied; and if the government could find a way to 
spread these best practices to make software more secure, it 
would have a real benefit.
    Finally, the U.S. can take steps to keep itself at the 
forefront of technology. This goes beyond funding cybersecurity 
research. While we spend more on R&D than other countries, it 
may not be enough to maintain our lead. These steps--better 
organization, better practices for coding, better identity 
management, attention to continuity of government and renewed 
support for technological leadership--can make networks more 
secure.
    Congressional oversight is critical with this. Without 
Congress to press senior leadership at Federal agencies, we 
will wait much longer for progress than would otherwise be the 
case.
    It has been 12 years since the U.S. became concerned with 
vulnerabilities in computer networks. There has been some 
improvement, but not enough. We have an opportunity to change 
this in the next few years.
    I thank the committee for the opportunity to testify. Thank 
you for entering my comments into the record, and I will be 
happy to take your questions.
    Mr. Langevin. Thank you, Dr. Lewis.
    [The statement of Mr. Lewis follows:]

                Prepared Statement of Dr. James A. Lewis

    I would like to thank the Committee for the opportunity to testify 
on the cybersecurity challenge the United faces. Cybersecurity is one 
of those problems that seem to be intractable. It is also a problem 
that, in the past, seemed to attract exaggeration and hyperbole. The 
combination is not ideal for creating effective policies, in part 
because the blend of intractability and exaggeration can create 
indifference.
    One way to overcome this indifference is to put cyber security in 
the right context. The context is not an `electronic Pearl Harbor' but 
the risk of loss of valuable information and the disruption of data and 
services. For Federal networks, the context for cybersecurity involves 
espionage and potential interruptions in the delivery of Federal 
services.
    The security of Federal networks has serious implications for 
homeland security as Federal network security affects both continuity 
of government and the operations of critical infrastructure. This alone 
justifies extra attention to government networks. In addition, measures 
that improve the security of Federal networks will also benefit private 
sector networks. My own view is that the security of Federal networks 
is the most serious cybersecurity challenge we face, more serious than 
the risks to critical infrastructure or from cybercrime.
    The most important of these challenges come from espionage. 
Cybersecurity is primarily a spy story. Cyber-espionage poses the 
greatest current threat to the United States. Hacking is the extension 
of signals intelligence into new and untrammeled areas. Foreign 
intelligence agencies must weep with joy when they contemplate U.S. 
government networks. We have thoughtfully placed sensitive information 
on these networks and then failed to secure them adequately. This is 
not a hypothetical problem. The last twenty years have seen an 
unparalleled looting of U.S. government's databases.
    The reliance upon information technology has changed the nature of 
espionage. Information is more valuable. Nations will use the 
traditional means of espionage (infiltration and recruitment) to obtain 
access to information, but information technologies have created a 
gigantic new opportunity. Hacking into computer networks (which are 
vulnerable and likely to remain so for years) provides new, low cost 
and low risk opportunities for espionage. Eight or nine countries have 
the advanced technical skills needed for these operations and smaller 
countries could hire hackers from the criminal world--we know of at 
least one instance where this has occurred.
    Conflict in cyberspace is clandestine, so it can be difficult to 
assess our opponents' intentions and capabilities. It is easier to 
assess the vulnerability of U.S. systems and the consequences of an 
information attack. U.S. networks are very vulnerable. Even highly 
sensitive networks used for command and control or intelligence are not 
invulnerable. From an intelligence perspective, several nations, have 
exploited the vulnerabilities of U.S. government networks to gain 
valuable information. These foreign intelligence efforts and the 
inadequate U.S. response have damaged national security.
    You heard last week about some of the problems that some agencies 
face. Their testimony highlights that securing Federal networks from 
cyber attack is one of the greatest challenges facing the United 
States, and that the scope of the challenge and the threat to national 
security are difficult to appreciate fully. Several incidents that 
occurred in the past few months help to illustrate the scale of the 
problem. In December and January 2006, for example, the Naval War 
College, the National Defense University, and other DOD facilities had 
to take computer networks offline after a foreign entity infected them 
with spyware. Before the last shuttle launch, NASA had to block e-mail 
attachments to avoid outsider attempts to gain access before a Shuttle 
launch. And as you heard last week, the Department of Commerce had to 
all of the computers at the Bureau of Industry and Security offline 
after they were hacked and infected with spyware.
    In contrast to espionage, the threat of the disruption of services 
remains hypothetical. Cyber-espionage is a routine occurrence, but 
there have been no disruption of services. We should not take much 
comfort from this, however. If an opponent can hack in to Federal 
networks to steal information, they are likely to also be able to hack 
in to implant malicious software that could be triggered in a crisis to 
disrupt services or to scramble data. It is safe to assume that many of 
our potential opponents are planning informational attacks to disrupt 
U.S. government services and databases.
    It is easy to overstate the effect of this disruption, but a 
cyberattack that increases uncertainty in the mind of an opponent 
degrades that opponent's effectiveness. This is a classic intelligence 
strategy, and cyber attacks on information systems provide new and 
expanded means to execute it. Denial and deception can make opponents 
certain that they know what is happening when, in fact, what they 
believe is wrong, or it can make them unsure that they know what is 
happening. Finding ways to inject false information into the planning 
and decision processes of an opponent, or manipulating information that 
is already in that system to make it untrustworthy, can provide 
military advantage. In the event of a conflict, our opponents will 
pursue an informational strategy that seeks to expand uncertainty and 
confusion and this will likely involve efforts to disrupt Federal 
networks.
    This litany of threats and risks might lead some to ask if the U.S. 
was better off before it depended so heavily on computer networks. The 
answer to that question is no. The benefits to the U.S. that come from 
the greater use of networks and computers outweigh the damage from poor 
cybersecurity. It is better to have networks than to be without them, 
and the use of computer networks provides the U.S an advantage in its 
economy and its military operations. However, the porousness of our 
Federal networks erodes those benefits. Greater attention to 
cybersecurity would increase the benefits our nation gains from 
networks and close off an avenue of asymmetric advantage to our 
opponents.
    There have been serious efforts in the national security community 
to make their networks more secure. Our most sensitive military and 
intelligence functions are probably secure. Some civil crucial networks 
are more secure--much attention has been paid to Fedwire, the Federal 
Reserves electronic funds transfer system, for example. But, as you 
heard last week, many agency networks remain poorly secured, and it is 
safe to say that reams of diplomatic, scientific, administrative and 
defense industrial information at the various agencies have not been 
adequately secured. In looking at the security of Federal networks, it 
is fair to say that while the U.S. is better off than it was five years 
ago or ten years ago, the improvement has been unevenly distributed 
among agencies. Some are secure, most are not.
    Additionally, some efforts to improve cybersecurity have not had 
the benefits we expected. It is quite possible for our opponents to 
hack a computer running software that has Common Criteria 
certification, on a network that has met the requirements of ISO 19779, 
at an agency that has gotten good marks on FISMA. In other words, you 
can meet all the formal requirements and still be vulnerable.
    Network security is also a dynamic situation, dynamic in the sense 
that attacks are continuous and continuously changing. We should 
applaud those agencies that have, after some months, discovered their 
networks have been hacked and have taken steps to undo that hack, but 
our next question should be, ``and now what are you doing.'' Attacks on 
Federal networks are continuous, and fixing one problem does not mean 
that we have checked the box and can turn our attention elsewhere.
    How doe we change this situation? There is no silver bullet, no 
single program or effort that will remedy this problem. Increased 
funding will not improve security. The Federal Government is a complex 
enterprise, with thousands of networks and hundreds of thousands of 
computers. No single agency has control of this collection of networks. 
Some Federal networks are among the most secure in the world, although 
even these are not immune from attack. Others are routinely penetrated. 
Some systems use the most advanced technologies. Others are legacy 
systems, running programs that may date back many years and which, for 
all practical purposes, cannot be secured.
    Making networks more secure is a large and complex problem. The 
core of the problem is organizational. Although it has been more than a 
decade since the Marsh report on the risks posed by cyber attack to 
critical infrastructure, and although there has been progress, the 
Federal Government is still disorganized when it comes to cyber 
security. The Department of Homeland Security, the Federal CIO Council, 
and the Office of Management and Budget all play a role in securing 
Federal networks. But cybersecurity remains a low priority and an 
afterthought for many agencies, and the Federal response to 
cybersecurity remains largely ad hoc and dispersed.
    Along with better organization, the U.S. also needs a better 
strategy. There is, of course, a National Cyber Strategy from 2003, but 
that strategy is now outdated. It shifted too much of the burden for 
security to the private sector and did not resolve key issues regarding 
responsibility within the government. A new, comprehensive cyber 
security strategy for the Federal Government would need to include a 
number of complementary measures to reduce vulnerabilities. The 
following paragraphs provide a brief outline of some of the major 
elements of this approach.
    Rationalizing and streamlining governmental processes for improving 
cybersecurity is essential. There are too many interagency groups and 
committees working on the same problem, often with the same people, and 
few of them have the authority to make any real progress. The U.S. does 
not need a new White House cyber czar, but it does need to do more to 
direct and coordinate efforts by the various agencies. The recent 
creation of a cybersecurity Policy Coordinating Committee at the 
National Security Council is an important first step.
    Second, the U.S. can do more in the area of improving agency 
practices when it comes to networks security. Cybersecurity is still a 
third tier priority at many agencies. If gangs of foreigners broke into 
the State or Commerce Departments and carried off dozens of file 
cabinets, there would be a crisis. When the same thing happens in 
cyberspace, we shrug it off as another of those annoying computer 
glitches we must live with. Agencies need to be held accountable for 
breaches. Our current approach is to treat losses of information 
through inadequate security as something that is separate from the 
performance of senior officials.
    The separation between the national security agencies and civilian 
agencies needs to be reduced. The national security agencies do better 
at security, but there is no good mechanism for sharing their expertise 
and experience with the civilian agencies. Developing better ways to 
coordinate network security efforts between agencies and to identify, 
share and enforce best practices for Federal network security across 
agencies would reduce risk and damage.
    Better identity management would also help improve cybersecurity. 
As long as it is easy to impersonate someone else on the internet, 
networks will never be secure. In this, initiatives like HSPD 12 and 
the Real ID Act offer the possibility to reduce risk. HSPD-12 mandated 
strong identity procedures and credential for the Federal Government 
and its contractors HSPD-12, along with Real ID, lay the foundation for 
robust authentication of identity. Much remains to be done, but the 
U.S. has begun to adjust how it manages identities to fit digital 
technologies and this will improve security.
    Continued attention to continuity of operations and continuity of 
government can mitigate the risk of disruption of Federal services. As 
part of a Federal cybersecurity strategy, this would entail measures to 
keep networks operating at some minimal level and to provide continued 
access to data. This is an area where there has also been some 
progress.
    One new area the government can begin to address is how to improve 
software assurance. This means creating processes for transparency, 
evaluation and coordination in the production of more secure software 
for government use. In considering this, let me refer to an episode 
from American history, when the U.S. faced a similar problem and what 
it did about it. This story has an unlikely hero--Herbert Hoover. 
Hoover may have been a terrible or unlucky President, but he was a 
great Secretary of Commerce. One of the things he did in the 1920's as 
Secretary of Commerce was call a number of leading companies from 
different sectors - automobiles, electrical equipment and so on, to the 
Commerce Department and say that they had to come up with a means to 
improve quality and interoperability in their products. This was the 
start of the industry-led standards process.
    We need something similar to happen for security and software 
production. There are existing standards bodies for software. These 
standards are aimed at products--how they perform and how they 
interoperate. The U.S. does not need to duplicate them. What we need is 
a new means for understanding how to produce software in ways that can 
assure security.
    CSIS recently did a study that looked at how some of the larger IT 
companies write software. We found considerable attention to security 
among the companies, and that each company had a set of `best 
practices' for software assurance that make their products more secure. 
We also found that each company's best practices were somewhat 
different, and that these practices were sometimes unevenly applied.
    Finding a way to extend commercial best practices for assurance 
would benefit both Federal networks and the private sector. The 
procedures companies use as part of their software production process 
internal reviews and testing for performance and security, external 
testing and red-teaming, and the use of software review tools (some 
commercial, some proprietary and developed by the software company 
itself) to find vulnerabilities or errors. These practices offer the 
building blocks for an approach that could reduce vulnerabilities.
    The key to these new processes should be to build upon what is 
already done within the private sector when it comes to software. 
Software producers realize the importance their customers place on 
assurance and security and have adjusted their internal procedures to 
meet this market demand. While there is much commonality and overlap in 
what companies do, each company approaches the issues of assurance and 
security somewhat differently. From these differences, we can extract 
best practices and requirements that will address, as part of a larger 
solution set, the risks posed by foreign involvement in software 
production.
    Please note that I am saying best practices, not standards. An 
attempt to have the government mandate standards for software 
production and then enforce them would damage the American economy 
without producing any benefit for security. So new regulations, new 
government standards are not the solution. However, the government 
could encourage industry to use best practices for making secure 
software by linking practices to its acquisitions policies. If the 
Federal Government gave preference in its acquisitions to software that 
was developed with trustworthy processes, it would provide an incentive 
that would benefit both the Federal and the commercial markets.
    Companies are making serious efforts to improve software assurance, 
but the government needs to be able to understand and guide those 
efforts. Traditional approaches to governance--command and control or 
heavy regulation--would increase assurance at an unacceptable cost. 
Software assurance may be the effort that promises the greatest returns 
to cybersecurity. The U.S. needs news ways to let the government and 
the private sector work together to develop some generalized set of 
best practices for software production, and the Departments of Defense 
and Homeland Security are involved in some interesting work in this 
area.
    Finally, the U.S. can take steps to keep itself at the forefront of 
technology. This goes beyond simply funding more cyber-security 
research. Overall, the U.S. invests more than other nations in 
research, but this investment may not be enough, in an era of increased 
international competition, to preserve leadership. Federal investment 
in the research that undergirds technological innovation offers 
tremendous returns for both the economy and for security. Innovation 
makes life more difficult for opponents. Measures that improve the 
climate for innovation in the U.S. also help build a skilled domestic 
workforce.
    These steps--better Federal organization, best practices for coding 
combined with acquisitions, better identity management, attention to 
continuity of government and renewed support for technological 
leadership--can form a coherent strategy for improving the security of 
Federal networks and cybersecurity in general. Being able to articulate 
a strategy is important, but implementation will always be a challenge. 
In this, Congressional oversight is critical to this. Without Congress 
to press senior leadership at Federal agencies to do better, progress 
will take much longer than would otherwise be the case.
    It has been more than twelve years since the U.S. became concerned 
with the vulnerabilities created by its use of computer networks. There 
has been some improvement in that time, but not enough. We have an 
opportunity in the next few years to change this with improved Federal 
organization and better strategies. Our goal should not be perfect 
security, but to gain more advantage than our opponents from the use of 
information technology.
    I thank the committee again for the opportunity to testify. I ask 
that my entire statement be entered into the record, and I will be 
happy to take your questions.

    Mr. Langevin. Dr. Geer.

    STATEMENT OF DANIEL E. GEER, JR., PRINCIPAL, GEER RISK 
                         SERVICES, LLC

    Mr. Geer. Thank you.
    I don't do this every day, so I am just going to start with 
what I know of as the four verities of government, which is 
most exciting ideas are not important, most important ideas are 
not exciting, not every problem has a good solution, and every 
solution has a side effect. And that is amazingly true in the 
field that I work in, cybersecurity. Every bit of that is true.
    I am going to try to give you five priorities from my point 
of view.
    The first is, we need a system of security metrics, metrics 
that actually work. One of the great scientists of all time, 
Lord Calvin, said, and I have to read this:
    When you can measure what you are talking about, and 
express it in numbers, you know something about it; but when 
you cannot measure it, when you cannot express it in numbers, 
your knowledge is a meager and unsatisfactory sort; it may be 
the beginning of knowledge, but you have scarcely, in your 
thoughts, advanced to the stage of science.
    As we stand here today, we do have some metrics. Most of 
them are imperfect--all of them are imperfect. A few are good 
enough for decision making.
    In late 2003, the NSF held a sequestered invitation-only 
workshop to determine the 10-year ``grand challenges'' in 
cybersecurity. One of those four grand challenges that we came 
up with one speaks directly to this: Within a decade, we must 
have a body of quantitative information risk management as 
sophisticated as quantitative financial risk management. That 
item actually was mine, and it was my pleasure to present it to 
House Science.
    Good metrics aren't cooked in the kitchen. They don't 
appear on demand. Like statistics, they can mislead. The 
purpose of risk management is to improve the future, not to 
explain the past. Security metrics are the servants of risk 
management, and risk management is about making decisions under 
uncertainty. Therefore, the metrics I am talking about, the 
only ones we are interested in, are those that support decision 
making about risk for the purpose of managing that risk.
    I would recommend that some sort of clearinghouse review of 
what we know how to measure and in particular how good what we 
know how to measure is at predicting the future would be a good 
thing to do right away.
    Second priority. The demand for security expertise 
outstrips the supply.
    Information security is, in my view, the hardest technical 
field on the planet. Nothing is stable, surprise is constant, 
and defenders are at a permanent structural disadvantage 
compared to the attack side. There is no fixing that.
    But because the demand for expertise so outstrips the 
supply, the fraction of practitioners who are charlatans is 
rising. Because the demands of expertise are so difficult, the 
training deficit is critical. We don't have the time to create 
all the skills that are required. We have to steal them from 
other fields.
    The reason cybersecurity is not worse than it might 
otherwise be is because a substantial majority of those who are 
currently practicing were trained in other fields and, 
therefore, they bring the expertise of those other fields to 
this one. We are lucky that that is true. Civil engineers, 
public health people, actuaries, aircraft designers, lawyers, 
you name it, all of them can contribute something.
    We do not have the facility to train people from scratch at 
the rate at which we need it; and so anything you can do to 
encourage people to come into this field who are themselves 
smart, analytic, willing to operate under a high degree of 
uncertainty and convinced that this is worth doing, anything 
you can help with that, please do.
    Third priority. What you can't see is more important than 
what you can.
    Perhaps you got a taste of it last week. I was not aware of 
that hearing. I don't follow this kind of thing. Let me be 
clear, the opposition is professional. It is not joyriders. It 
is not braggarts. It used to be, but it isn't now. Because of 
the sheer complexity of modern networks, there is any number of 
places for people of ill-will or for computer software of ill-
will to hide. And that is not getting better, and it won't get 
better.
    The complexity for the most part is because product 
manufacturers are under competitive pressure to keep inserting 
new features into their products. This is not going to go away, 
and it is not something I would suggest that you attack. Were 
there no attackers, the way in which software is built would be 
a miracle of efficiency. The fact that there are attackers, the 
fact there are sentient opponents, the fact that this is not 
evolution but intelligent design of a nasty sort, that is what 
we have to work on.
    Complex systems tend to fail in complex manners. It is very 
hard to figure that out in advance. It is exceptionally hard. 
That is why I say it is probably the hardest field there is.
    In particular, I think what you need to do is to do 
something that I don't like the sound of but I will say. 
Ignorance of the law is no defense on my part. My swimming pool 
is an attractive nuisance, whether I like it or not. I don't 
think we can go much farther and say that I didn't know it had 
a flaw is any kind of defense. And software licenses, to the 
last one of them, have that built into them, and it has to be 
addressed.
    The fourth one is we have to have some sort of information 
sharing. You all know about all of this. I am not going to 
belabor it. The model I would recommend to you is the Centers 
for Disease Control. They only have three things that matter: 
the mandatory reporting of communicable disease, the skill to 
separate statistical anomalies from true hot spots, and an away 
team to handle things like an outbreak of ebola. Beyond that, 
nothing matters.
    I would suggest that something like that needs to be done 
here. No general counsel acting rationally will ever share 
attack data. There is nothing but downside risk from where they 
are.
    So if I can give you a research grade problem to work on, 
the research grade problem is this: Find some way to do 
technical de-identification of attack data so that general 
counsel's rational fear of sharing that data can be put aside 
under a technical guarantee. They do not and they will not 
believe your procedural guarantees. We have got to have a 
technical guarantee. This is a research grade problem that 
needs to be done.
    The fifth one and last one is perhaps the hardest of all, 
and that is accountability rather than access control. Access 
control is who you are, authentication, what you are allowed to 
do given who you are, authorization. It doesn't scale. And if 
we try to make it scale--that is not to say everybody does it 
well as it is, but if we try to make that scale, the rate at 
which data and facilities and knobs to adjust are increasing is 
out of our ability to add to that full-blown access control 
going forward.
    We have to do something else. This is a free country. I 
didn't have to ask anyone's permission to be here, to get on 
the bus or what have you. But if I sufficiently badly screw up, 
then I will have to pay for it. We are in the physical world 
committed now to surveillance, whether we like it or not. You 
can't live your life without metal detectors and cameras. We 
are going have to do that in this world.
    And if I may say so, please make sure that the surveillance 
we have to do is directed at data and computers and not at 
people. It is a choice we have to make, and it is an ugly 
choice.
    I will just say the five things again and be quiet.
    We need a system of security metrics, and it is a research 
grade problem.
    The demand for security expertise outstrips the supply, and 
it is both a training and a recruitment problem.
    What you can't see is more important than what you can, and 
you can never mistake the absence of evidence for the evidence 
of absence.
    Information sharing that matters does not happen and cannot 
happen until we have technical guarantees, rather than 
procedural ones.
    And accountability is an idea whose time come, but--to 
steal Leon Uris' phrase--it has a terrible beauty.
    Thank you.
    Mr. Langevin. Thank you, Dr. Geer.
    [The statement of Mr. Geer follows:]

                  Prepared Statement of Daniel E. Geer

Introduction
    The Nation's cybersecurity challenges are profound and not easily 
addressed. Perfection is not possible; rather this is entirely a matter 
of risk management, not risk avoidance. Easy to say.Hard, though not 
impossible, to do. Starting yesterday would be good. Money alone will 
not solve anything. Policy alone will not solve anything. Fixing what 
isn't broken will waste money capital and policy capital; fixing what 
is broken will require both. Wishful thinking, whether explicit or 
implicit, intentional or delusional, will allow the problem to get 
bigger.
    In the testimony which follows, I make no attempt to argue from 
first principles or to provide every supporting footnote that would be 
required to prove the assertions made; I don't think you want it and 
the page limit prevents it. I do, however, have all the proof that can 
be had, and stake my professional reputation on what is said here. I 
trust that you have invited me because you are aware of that reputation 
and my bona fides in these matters. The material is brief in the hope 
that brevity increases the likelihood it will be read. This is not your 
last chance to get my attention; I hope it is not my last chance to get 
yours.

Priority number one: A system of security metrics.
    ``You cannot manage what you cannot measure'' is a cliche, but, 
happily,one of the great scientists of all time, William Thompson, Lord 
Kelvin, put it as well as it can be put:
        When you can measure what you are speaking about, and express 
        it in numbers, you know something about it; but when you cannot 
        measure it, when you cannot express it in numbers, your 
        knowledge is a meagre and unsatisfactory kind; it may be the 
        beginning of knowledge, but you have scarcely,in your thoughts, 
        advanced to the stage of science.
    As we stand here today,we have some security metrics. None of them 
are perfected though many are good enough for decision making if, and 
only if, they are collected by persons whose aim is truth rather than 
positioning. In late 2003, the Computing Research Association and the 
National Science Foundation held an invitation-only workshop to 
determine the ten-year ``grand challenges'' for NSF investment in 
cybersecurity. Of the four grand challenges settled upon, one speaks 
directly to this: Within a decade, we must have a body of quantitative 
information risk management as sophisticated as the then existing body 
of financial risk management. That item was mine, and I had the honor 
of presenting it to this body immediately after the conclusion of the 
workshop.
    Good metrics are not cooked in the kitchen. They are not created 
simply because the Congress demands them. Like statistics, they can 
mislead. In your line of work, you doubtless know this better than I 
and I know it well. The purpose of risk management is to improve the 
future, not to explain the past. Security metrics are the servants of 
risk management, and risk management is about making decisions under 
uncertainty.Therefore, the only security metrics we are interested in 
are those that support decision making about risk for the purpose of 
managing that risk. I urge the Congress to put explaining the past, 
particularly for the purpose of assigning blame, behind itself. 
Demanding report cards, legislating under the influence of adrenaline, 
imagining that cybersecurity is an end rather than merely a means--all 
these and more inevitably prolong a world in which we are procedurally 
correct but factually stupid. A clearinghouse review of what we know 
how to measure and how good what we know is at predicting the future 
would be a good start as we do not even know what it is that we do not 
know.

Priority number two: The demand for security expertise outstrips the 
supply.
    Information security is perhaps the hardest technical field on the 
planet. Nothing is stable, surprise is constant, and all defenders work 
at a permanent, structural disadvantage compared to the attackers. 
Because the demands for expertise so outstrip the supply,the fraction 
of all practitioners who are charlatans is rising. Because the demands 
of expertise are so difficult, the training deficit is critical. We do 
not have the time to create, as if from scratch, all the skills 
required. We must steal them from other fields where parallel 
challenges exist. The reason cybersecurity is not worse is that a 
substantial majority of top security practitioners bring other skills 
into the field; in my own case, I am a biostatistician by training. 
Civil engineers, public health practitioners, actuaries, aircraft 
designers, lawyers, and on and on--they all have expertise we can use, 
and until we have a training regime sufficient to supply the unmet 
demand for security expertise we should be both grateful for the 
renaissance quality of the information security field and we should 
mine those other disciplines for everything we can steal. If you can 
help bring people into the field, especially from conversion, then 
please do so. In the meantime, do not believe all that you hear from 
so-called experts. Santayana had it right when he said that 
``Scepticism is the chastity of the intellect; it is shameful to give 
it up too soon, or to the first comer.''

Priority number three: What you cannot see is more important than what 
you can.
    The opposition is professional. It is no longer joyriders or 
braggarts. Because of the sheer complexity of modern, distributed, 
interdigitated, networked computer systems, the number of hiding places 
for unwanted software and unwanted visitors is very large. The 
complexity,for the most part, comes from competitive pressure to add 
feature-richness to products; there is no market-leading product where 
one or a small group of people knows it in its entirety,and components 
from any pervasive system tend to be used and re-used in ways that even 
their designers did not anticipate. Were there no attackers, this would 
be a miracle of efficiency and goodness. But unlike any other 
industrial product, information systems are at risk not from accident, 
not from cosmic radiation, and not from clumsy operation but from 
sentient opponents. The risk is not, as some would blithely say, 
``evolving'' if by evolving the speaker means to invoke the course of 
Nature. The risk is due to intelligent design, and there is nothing 
random about it.
    Because complex systems fail complexly, it is not possible to 
anticipate all the failure modes of large and therefore complex 
information systems. This complexity provides both opportunity and 
hiding places for attackers. Damping out complexity is not something 
that even the Congress can take on, but security failures come from it 
as surely as dawn comes from the east. Given that most software license 
agreements are an outrage, it is high time that security failures in 
software systems be deemed per se offenses. Just as my ignorance of the 
law is no defense and my swimming pool is an attractive nuisance 
whether I like it or not, ignorance of installed vulnerabilities can no 
longer be a defense for any party.

Priority number four: Information sharing that matters.
    On the Internet every sociopath is your next door neighbor; you can 
never retreat to a safe neighborhood. Your ability to defend depends on 
your ability to know what the current threat profile is, both generally 
to all and specifically to yourself. For any given attack, you have 
zero ability to know whether you are a target of choice or a target of 
opportunity unless you share attack data with others.
    Our Centers for Disease Control lead the world, full stop. There 
are only three things that make this so: (1) Mandatory reporting of 
communicable disease, (2) Longitudinal analysis and the skill to 
separate statistical anomalies from genuine harbingers of important 
change, and (3) Away teams to handle outbreaks of, say, Ebola. All the 
rest is details. Of the three, the one that matters most is the 
mandatory reporting of communicable disease, and explicitly on the 
grounds that individual medical privacy must yield when the public risk 
is above threshold.
    No General Counsel will share information risk data willingly, and 
no Chief Information Security Officer outranks his/her GC. Shared 
information does always carry some acute chance that it contains a 
previously unknown embarrassment, while any benefit from sharing is 
diffuse and delayed. Any person is risk averse when they don't know 
what risk they are taking and more so when the risk is involuntary; the 
GC is rational to not share data, in other words. The Congress should 
be wary of legislating irrationality, as always.
    To get information shared the need is for a technical guarantee of 
harmlessness rather than a procedural guarantee. This is, in other 
words, a straight-up research question: How to provide technical de-
identification of useful cybersecurity data so that that data can be 
shared with low or no risk to its source. Such technical protection 
should be open-sourced so that its strength can be independently 
evaluated a priori rather than the ``trust us'' nature of a procedural 
guarantee. Fund this research.

Priority number five: Accountability,not access control.
    Information is the coin of the economic realm, and information that 
is used is information that moves about. Winners have the most 
information in play; losers have too much. Security technology is the 
fine line between the most information in play and too much information 
in play. The conventional answer to protecting information is to in 
some way limit who can do what and to which. Authentication (who you 
are) and Authorization (what you can do, given who you are) represent 
the conventional approach, sometimes jointly called Access Control. The 
problem is, these technologies do not scale and if you try to have ever 
finer control over the avalanche of new data items appearing by the 
second, you will be contributing to the complexity that is the bane of 
security.
    What does scale is Accountability. In a free country,you don't have 
to ask permission for much of anything, but that freedom is buttressed 
by the certain knowledge that if you sufficiently screw things then up 
you will have to pay. The economics of the access-control model of 
information security do not scale; rather economics favor an 
accountability model focused on the monitoring of information use 
rather than the gatekeeping of information access. This means 
surveillance of data use in the sense of being able to reconstruct how 
information is used when it is used badly. This does not mean to throw 
away our existing investment in access control, but further investment 
in that will only produce inefficiency and a false sense of security.
    We are, sadly if necessarily, making surveillance a commonplace of 
physical security; it is no longer possible to live in a world without 
cameras. We will have to, sadly if necessarily, make surveillance a 
commonplace of cybersecurity. As you consider how to make these 
dreadful choices, I suggest that the unit of observation be a datum, 
not a person, that if a surveillance system has to protect the digital 
world, that that surveillance be directed at data, not persons. If 
anything, this is risk management applied to risk management.

Summary
        <bullet> We need a system of security metrics, and it is a 
        research grade problem.
        <bullet> The demand for security expertise outstrips the 
        supply,and it is a training problem and a recruitment problem.
        <bullet> What you cannot see is more important than what you 
        can, and so the Congress must never mistake the absence of 
        evidence for the evidence of absence, especially when it comes 
        to information security.
        <bullet> Information sharing that matters does not and will not 
        happen without research into technical guarantees of non-
        traceability.
        <bullet> Accountability is the idea whose time has come, but it 
        has a terrible beauty.

    Mr. Langevin. Mr. Saydjari.

  STATEMENT OF O. SAMI SAYDJARI, PRESIDENT, PROFESSIONALS FOR 
 CYBER DEFENSE CHIEF EXECUTIVE OFFICER, CYBER DEFENSE AGENCY, 
                              LLC

    Mr. Saydjari. Chairman Langevin, Ranking Member McCaul, 
members of the subcommittee, it is a pleasure to have this 
opportunity to testify today on this matter of utmost national 
importance.
    I come to you as the leader of the Professionals For Cyber 
Defense, a nonprofit group of recognized national cybersecurity 
leaders advocating for sound U.S. cyber defense policy.
    I have a written statement which, with your permission, I 
would like to enter into the record. I will briefly summarize 
it and look forward to responding to the committee's questions.
    In 2002, more than 50 leading cyber defense experts signed 
a letter, feeling compelled to warn President Bush of strategic 
threat to our Nation from attacks to our information 
infrastructure. Our message was simple. I am going to repeat 
that message to you today. The U.S. faces a national strategic 
threat requiring a national strategic response, and you can 
help today.
    First, to a strategic threat. The lack of a strategic 
response must come, in our opinion, from a lack of belief in an 
established strategic threat. Even an uncertainty and a 
possibility of the strategic threat that we see demands 
immediate action to resolve that uncertainty to move forward on 
sound policy. Because of this, the Professionals for Cyber 
Defense developed and vetted a simulated strategic attack 
campaign against the United States to help establish the nature 
and effect of such an attack.
    Our findings are sobering. The U.S. is vulnerable to 
strategically crippling cyber attacks from nation-state 
adversaries. The level of devastation to our economy and to our 
way of life is potentially disastrous. The ripping of our 
social fabric will be on an order that we only glimpsed in the 
aftermath of Hurricane Katrina. We will move from being a 
superpower to a third world country practically overnight. We 
are a Nation unprepared to defend ourselves against this 
strategic threat and recover from it when it happens.
    Therefore, the PCD recommends that the United States engage 
in a national threat assessment immediately to verify our 
findings and move forward. The critical IT infrastructure is as 
legitimate a part of our territory as physical land. We depend 
upon it now for our survival, just like land in the industrial 
and agrarian ages. Cyberspace controls real-world critical 
assets like power generators, power distribution, oil and gas 
pipelines. The information age requires us to defend this 
digital territory. Therefore, the government must provide for 
the common defense of this new territory.
    This is not a matter of big government versus small 
government. It is not a matter of interfering or controlling 
the private sector. The private sector openly has declared that 
they desperately need the government's help against defending 
against nation-state adversaries. There are a lack of 
incentives for the private sector to solve this problem on 
their own, just as there is a lack of incentive to solve this 
problem to defend our land.
    Second, the strategy response. An effective strategy 
response is a multi-billion dollar national priority investment 
run by the country's best expert focused on defensive 
capabilities as soon as possible. This will require an 
unprecedented level of collaboration between government and the 
private sector. Think in terms of a national cyber militia, 
where our private sector and government are working hand in 
hand to defend our critical systems against nation-state 
adversaries.
    We must start now. The capabilities will take a minimum of 
3-years to establish and will take beyond that to put into 
effect. We cannot wait until we are in the middle of a disaster 
to begin this development of these capabilities.
    A program of this order requires a very, very large ante. 
We estimate a $500 million ante to begin this program is 
essential.
    The organization is inherently multi-agency. Ultimately, we 
will need a centralized national level, top talent, agile, 
small special projects office to coordinate and run this effort 
throughout this program.
    Third, Congress can help today by doing three things:
    First, support required funding levels. We are talking 
about $50 million for the Department of Homeland Security R&D. 
That is an order of magnitude off for the ante. We are in deep 
trouble.
    Second, advocate this initiative to agency heads in a 
formal letter to motivate immediate discretionary investment to 
begin to jump start this program right away.
    Third, lead the way by commissioning blue ribbon panels and 
special investigative committees to help establish momentum. 
Inaction isn't an option for any of us who know the stakes and 
are entrusted by the people to provide for the common defense 
and to protect the future of this great Nation.
    The PCD stands ready to help.
    Thank you.
    Mr. Langevin. Thank you, Mr. Saydjari.
    [The statement of Mr. Saydjari follows:]

                 Prepared Statement of O. Sami Saydjari

    Chairman Langevin, Ranking Member McCaul, and Members of the 
Subcommittee, it is a pleasure to have this opportunity to testify 
before you on an issue that is of utmost national urgency. I come to 
you as the leader of the Professionals for Cyber Defense, a non-profit 
group of recognized national cyber security leaders dedicated to 
advocating for the development of a sound cyber defense policy for the 
United States.
    Summary. (1) The US is vulnerable to a strategically crippling 
cyber attack from nation-state-class adversaries. Cyber space primarily 
controls our real-world critical assets and is as legitimate a part of 
our territory as physical land, thus the government must provide for 
the common defense of this new territory. (2) A strategic multi-
billion-dollar investment run by the country's best experts can 
mitigate this risk if we start now with $500 million. (3) Congress can 
help today by supporting this funding level, advocating this initiative 
to Agency heads in a formal letter to motivate immediate discretionary 
investment, and leading the way by commissioning blue-ribbon panels and 
special investigative committees to help establish momentum.
    Imagine the lights in this room suddenly go out, and we lose all 
power. We try to use our cell phones, but the lines of communication 
are dead. We try to access the Internet with our battery-powered 
laptops, but the Internet, too, is down. After a while, we venture out 
into the streets to investigate if this power outage is affecting more 
than just our building, and the power is indeed out as far as the eye 
can see. A passer-by tells us the banks are closed and the ATMs aren't 
working. The streets are jammed because the traffic lights are out, and 
people are trying to leave their workplaces en masse. Day turns to 
night, but the power hasn't returned. Radio and TV stations aren't 
broadcasting. The telephone and Internet still aren't working, so 
there's no way to check in with loved ones. After a long, restless 
night, morning comes, but we still don't have power or communication. 
People are beginning to panic, and local law enforcement can't restore 
order. As another day turns to night, looting starts, and the traffic 
jams get worse. Word begins to spread that the US has been attacked--
not by a conventional weapon, but by a cyber weapon. As a result, our 
national power grid, telecommunications, and financial systems have 
been disrupted--worse yet, they won't be back in a few hours or days, 
but in months. The airports and train stations have closed. Food 
production has ceased. The water supply is rapidly deteriorating. Banks 
are closed so people's life savings are out of reach and worthless. The 
only things of value now are gasoline, food and water, and firewood 
traded on the black market. We've gone from being a superpower to a 
third-world nation practically overnight.
    We saw what happened to the social fabric when Hurricane Katrina 
wiped out the infrastructure in a relatively small portion of our 
country: chaos ensued and the impact lasted a long time. What would be 
left after months of recovery from such devastation nationwide? Such 
strategic cyber attack scenarios are plausible and thus worthy of 
urgent attention. We are a nation unprepared to properly defend 
ourselves and recover from a strategic cyber attack.
    My purpose today is to make a case for congressional action to 
support a major government initiative that could mitigate the risk of a 
devastating strategic cyber attack against the US. To understand the 
plausibility of such attacks without undertaking any action would be 
unconscionable. Even uncertainty by government leaders regarding such 
plausibility demands immediate action to remove the uncertainty and 
enable responsible policy decisions. The only rational approach to 
address a problem of this magnitude and scale is a concerted high-
priority government program on the order of the Manhattan Project. 
Failure to embark on such a program now will have disastrous 
consequences to our national interests sooner rather than later.
    I will now review the case for action our group made in a letter to 
President George W. Bush in 2002, highlight the true nature of the 
national strategic threat in a realistic cyber attack campaign called 
Dark Angel, outline the only reasonable strategic countermeasure in the 
form of an urgent, high-priority, multi-billion-dollar national program 
that we've dubbed the ``Cyber Manhattan Project,'' point to some recent 
promising but woefully underfunded cross-agency analysis and planning 
that affirms both the grave situation and the need for a national 
program, and then I'll close with some recommendations on moving 
forward.

    Background. In 1939, Albert Einstein felt duty-bound to warn 
President Franklin Roosevelt of a strategic threat to the country from 
nuclear weapons and the need for immediate action. In 2002, more than 
50 leading cyber defense experts similarly felt compelled to warn 
President Bush of a strategic threat of a different kind, one to our 
critical information infrastructure. On 11 September 2001, terrorists 
used our air transport infrastructure against us and made a serious 
impact on both our economy and sense of security. Against a strong 
country such as the US, frontal attacks make little sense, but our 
vulnerability to infrastructure attacks makes such attacks increasingly 
likely.
    The signers included a former Director of Central Intelligence, a 
former Director of the National Security Agency, a former Director of 
the Defense Advanced Research Projects Agency, and many of the nation's 
leading scientists and engineers. We warned President Bush that (a) the 
situation was grave, with nation-states such as China developing 
serious offensive capabilities, (b) a national initiative with 
priority, top talent, funding, and focus on par with the Manhattan 
Project was urgently needed to create cyber defense capabilities in 
close partnership with industry, (c) threading together components of 
national exercises, results from accidental information system 
failures, and actual cyber attacks, one could create devastating 
scenarios of strategic damage to the US, and (d) that the private-
sector economy wouldn't solve the problem without government leadership 
because of a lack of incentive to do so. Since we signed the letter, 
little has changed with respect to the situation or the trend. It's 
time to move forward.
    A subset of the signers formed a group called the Professionals for 
Cyber Defense (PCD) to engage in continuous advocacy. In summer 2002, 
the PCD panel reviewed the President's draft National Strategy to 
Secure Cyberspace. They found that the plan offered valuable advice to 
counter lower-grade threats but that it had a fundamental flaw in its 
unstated premise that there was no strategic national threat. In 
response, we recommended that the government urgently initiate a 
scientific process to establish the scale, gravity, and validity of the 
national strategic threat of cyber war against our nation. We expected 
that such a process would validate the repeated warnings from the 
technical community in reports from the Defense Science Board, National 
Academy of Sciences, and the President's Commission.
    But in our dialogue with the government, we learned of two barriers 
to aggressive action: (1) the perception that government investment 
would require ``big government'' private-sector interference, and (2) 
the case for national strategic vulnerability wasn't yet credible to 
senior leadership. In retrospect, on the first issue, we failed to 
realize that government leadership simply did not see cyber space as a 
territory on which we deeply depend and that must be protected and 
defended--rather, some people in leadership positions viewed it as an 
optional digital playground of bits and bytes for exchanging personal 
messages or looking at hobby information. But this isn't a matter of 
``big government'' versus ``small government''; it's a matter of our 
government stepping up to its constitutionally required duty to defend 
the US against threats beyond the capabilities and means of the private 
sector. We deeply understood the second issue, which is why we 
advocated for an urgent national-scale analysis of the vulnerability as 
the starting point for a program plan. In September 2002, the panel 
decided to sketch a case for action in the form of a realistic 
strategic cyber attack campaign against the US called ``Dark Angel.'' 
This sketch was intended to be a starting point because it could 
demonstrate the problem's gravity.
    The Threat: Dark Angel. What is the problem, and what is the 
solution? For the problem, we must ask if a strategic national 
vulnerability exists, what its scope is, and how bad ``bad'' can get. 
Without understanding the detailed nature of the problem, the efficacy 
of any proposed strategy is unknown. We must also ask why any proposed 
national strategy will solve the problem, and what happens if it 
doesn't. These seem like childishly simple questions, but the answers 
have been elusive. Indications are that national economic devastation 
is quite possible, and when we're in the middle of the disaster isn't 
the time to start thinking about how to respond. Preparing for cyber 
war will take in excess of three years and require infrastructure 
instrumentation for critical computer systems, experienced cadres of 
defenders who are well trained and exercised, control systems to 
execute strategic responses, effective architectures to mitigate risk, 
and a national program to create defensive capabilities. Thus, 
understanding the problem is an immediate need.
    Planning. The small PCD planning team included a campaign planner, 
two experts in the financial sector, three in electrical power, and one 
in transportation. We assumed only unclassified critical infrastructure 
vulnerabilities. Our intent was to illustrate the damage a robust 
campaign that used multiple attack paths could cause and to create a 
plan with sufficient detail to convince experts in the domain. The plan 
took roughly 30 days to create. We assumed the adversary had three 
years of preparation, $500 million, and 30 days to actually execute the 
attack. The attack campaign's goal was to destabilize the US and 
depress the economy with attacks on critical infrastructure, thus 
reducing our ability to project military power, depleting our will to 
fight, and creating panic and distrust in the government.
    Our strategic campaign objectives included crippling rail 
transportation, rupturing oil and gas pipelines with improper control 
(for example, with cyber attacks similar to the one on the Soviet 
Trans-Siberian pipeline causing a three kiloton explosion, as described 
in ``At the Abyss'' by Thomas Reed), and creating widespread power 
outages by destroying hard-to-replace generators and power-line 
transformers with improper computer control commands. We also simulated 
attacks on financial services sectors, thus creating mass confusion in 
transaction settlement systems, flooded 911 systems with computer-
controlled false alarms to create widespread panic, and disabled 
Internet service by performing denial-of-service attacks on the 13 main 
Domain Name Servers (as has already been partially done in actual cyber 
attacks).
    In the simulated campaign, we spoofed attack attribution when 
possible to focus attention in the wrong direction; used lethal first 
strikes (for example, by hitting first responders and backups before 
hitting primary cyber targets); used a rolling attack barrage to 
interfere with recovery processes; delayed attacking instruments, such 
as the Internet, until that means was no longer needed in the campaign; 
bought cyber mercenaries and insiders as needed to gain capabilities 
and access; used non-cyber (physical) attacks on ``tough'' targets as 
needed; used psychological operations to create distrust in 
infrastructure and manipulate public opinion; and hampered the military 
by disrupting civilian re-supply chains.
    Our simulated attacks were vetted with experts in each of the key 
critical infrastructure domains. The essence of the plan and its likely 
effects were verified. There was some uncertainty about the 
consequences of some attacks--even now--but this was due to a lack of 
knowledge among the entire community to fully assess such consequences. 
It would be hubris to think our adversaries don't already have a plan 
in place that's substantially better than our brief sketch or that 
their capabilities to execute such an attack aren't improving.
    Follow-on. A proper national strategic threat assessment would 
parallel that of Dark Angel, and would involve top industry experts and 
business leaders, mix in military campaign planners, and mix in 
economists, policy makers, and others as needed. Sharing across 
industry should be encouraged and rewarded. From a management 
perspective, the assessment should carry presidential authority and 
priority. There should be three separate teams: one for planning and 
completing a concrete plan, one to execute the plan to the extent 
needed for demonstration purposes, and one to review the results for 
validity.
    The assessment must start from the premise built into Dark Angel: 
that cyber warfare will be economic and social warfare. Diagnosis of 
the source of vulnerabilities must be included and reflect that the 
organization and design of our production systems will often be more 
important than cyber defense technology in determining the nature and 
extent of the destruction. What to defend and what kinds of damages to 
prevent are not self-evident without such an assessment.
    For illustrative purposes, we estimate the resources needed for six 
critical infrastructure domains would take about $70 million, 300 top-
talent experts, and 9 calendar months. The final report would be a 
definitive estimate of our true national strategic vulnerability to 
cyber attacks, a compelling case for action, and the basis of a 
prioritized program plan.

    Countermeasure: Cyber Manhattan Project. As part of our dialogue 
with the government in 2002, we elaborated on the proper solution to 
the strategic vulnerability sketched out by our Dark Angel analysis. 
Cyber war defense requires orders of magnitude more government 
involvement and resources to avoid overwhelming national damages from 
strategic attacks. We recommended that the government (1) step up to a 
strong defense role against serious attacks, (2) focus on countering 
strategic attacks that have real-world effects, (3) develop a top-down 
architecture and engineered approach to the defined problem, (4) 
acknowledge that current technology is insufficient to defend against 
cyber war, and (5) divide the cost burden between the owner (to protect 
critical private cyber assets) and the government (to protect the 
integrity of the national commons).
    As mentioned earlier, we chose the name ``Cyber Manhattan Project'' 
to reflect the urgency, priority, focus, top-talent, and funding levels 
needed. We acknowledge that aspects of the analogy are inapt, such as 
the fact that (1) there is no single, easily measurable artifact (such 
as a bomb), (2) a broad spectrum of talent and organizations must be 
involved, (3) much of the work must be conducted without classification 
constraint, and (4) once an initial capability is achieved, a continued 
investment will be needed to maintain our cyber defense's 
effectiveness. We sketch the program below.

    Vision. We must rapidly overcome our nation's vulnerability to 
coordinated strategic cyber attacks from serious enemies.

    Project Description. We need an aggressive, goal-directed, high-
priority, national program to address the high-level threats that 
endanger the national well-being. To do this, we must engage the 
brightest scientists, business experts, and engineers, and provide them 
with adequate resources. To guide the program with strategic 
objectives, we need a top-down architecture that establishes concrete 
cyber defense capabilities on a specific timeline, including near-term 
capabilities within three years.

    Capabilities. Some cyber defense capabilities to include are as 
follows: (1) capability to create system resiliency and quickly recover 
from inevitable partially successful attacks; (2) a national cyber 
Command, Control, Communication, and Computer Intelligence, 
Surveillance, and Reconnaissance (C4ISR) system to measure and control 
mechanisms at multiple echelon levels; (3) a national threat assessment 
capability to drive decisions at some ``required'' level; (4) cyber 
firebreak mechanisms and architectures to slow down attacks and reduce 
potential damage; (5) capability to gather intelligence and inject 
uncertainty through strategic deception; (6) capability to model and 
simulate the enemy, thereby honing our defenses before incurring 
damaging strategic cyber attacks; and (7) capability to identify and 
understand available and acceptable responses from technical, 
strategic, legal, economic, and political perspectives.

    Urgency. Major potential adversaries are actively pursuing cyber 
war capabilities, which indicates the increasing probability of future 
cyber campaigns. Moreover, (a) current cyber defenses and best 
practices are ineffective, (b) active measures to shut down our 
adversaries' abilities to attack through physical access will drive 
them to cyber space, and (c) we face potentially greater vulnerability 
and lethality from combined cyber and physical attacks. Finally, 
developing a defense to this threat is a multiyear effort, so we can't 
wait until we find ourselves suffering in the midst of our first major 
strategic attack campaign.

    Priority. A major initiative on the order of the Cyber Manhattan 
Project is the right path to address our current situation. The 
offensive threat is growing, so defense must be fielded at a faster 
rate. A top-down approach with a driving architect can address the 
problem and achieve the requisite objectives, but bottom-up efforts, 
even if coordinated, leave gaps because there's no ownership of key 
parts of the problem. Cyber defense mechanisms must integrate into a 
coordinated system, and cyber defense operations must comprise a fully 
integrated defensive force. For success, the creation of national cyber 
defense capabilities must be a national funding priority. Can you 
imagine the original Manhattan Project succeeding without such a focus?

    Feasibility. Not only is the creation of national cyber defense 
capabilities critically urgent and important, it's also feasible. (1) 
Technically, many effective defensive technologies exist but are in 
research stages and must be transitioned to operational use; some 
already have limited field testing, and others already exist to address 
broad classes of novel attacks. Moreover, the required computational 
resources for intensive activities such as correlation of attack and 
modeling/simulating attack strategies and tactics are available today. 
Ongoing research sponsored by the likes of NSA, NSF, DOD, DNI, DHS, and 
others is beginning to address additional hard science problems. (2) 
Economically, we can make a national business case for investing in a 
program intended to avoid the expected financial losses from strategic 
cyber attacks and ensure the proper public-private sharing of the 
burden. (3) Operationally, we can manage the complex infrastructure 
though judicious use of automation with a capable cadre of defenders. 
Through a combination of reasonable fire-code-like cyber security 
standards, improved operational guidance, and trained/experienced 
personnel, we would also be able to contain mission and cost impacts in 
the short term while we develop new capabilities. (4) Politically, 
public awareness of the threat is likely to make needed investments and 
standards acceptable. Industry is increasingly aware that nation-state-
level attacks are a concern beyond their current ability to handle, yet 
they threaten business continuity. With proper financial incentives and 
partnering for workable solutions, industry is likely to openly embrace 
government involvement and protection. (5) Finally, from a schedule 
perspective, a phased rollout of capabilities based on threat 
prioritization and available technologies is also feasible. Success is 
certainly not assured, but the alternative is to begin radically 
reducing our dependency on computing systems, which would seriously 
degrade our national competitiveness and suppress economic growth. The 
cyber vulnerabilities in our infrastructures have become deeply 
embedded and widespread through the economic forces that drive 
individual companies to reduce costs by adopting the most widely 
available and interoperable technologies. It won't be easy to develop a 
cyber infrastructure that can resist strategic attacks--it will require 
short-term actions as well as a long-term plan and a willingness to 
keep that plan in focus over a number of years.

    Plan of Action. We recommend assigning a government lead 
responsible for creating a plan. The PCD offers to work with this lead 
and recommends a three-month deadline for developing a ``blueprint'' to 
launch the project, including technical and program management aspects. 
We also recommend jumpstarting a multiyear program now with as much 
seed funding as possible.
    The PCD hasn't worked out a full recommendation for how a Cyber 
Manhattan Project, which would inherently involve multiple agencies, 
ought to be organized and managed. A few points of consensus, though, 
appear to be emerging. (1) Distributing a surge of funding to the 
myriad bureaucracies that currently fund cyber defense won't work in 
the long run. Each bureaucracy pulls in a different direction, making 
focused investment nearly impossible, although a jumpstart in 2007/2008 
might have to start this way out of sheer practicality. (2) 
Centralizing funding and government-wide responsibility in one existing 
department or agency with its own mission will likely cause the funding 
to be spent by that bureaucracy's priorities, to the detriment of 
national interest. (3) Creating a whole new department or agency might 
fall into the too-hard-to-do pile, given the tremendous distractions 
and delays involved (as we've seen with the startup of the Department 
of Homeland Security).
    Eventually, what we need is a centralized, light-weight, high-level 
controlling body to create a focused effort on national cyber defense 
capabilities. One thought has been to create a special projects office 
accountable to and operating with the authority of the White House, 
with an elite staff of 200 people, at least half of the overall program 
budget, and some purview over the spending of the other half 
distributed and executed by existing organizations.
    Recent Developments. Recent activities tend to echo and affirm the 
PCD's earlier findings. In November 2006, in response to concerns of 
inherent computer system vulnerabilities and escalating threats, more 
than 60 experts in system security, processor design, operating 
systems, programming languages, networking, and applications from 
diverse backgrounds in academia, government, and industry met to 
consider past, current, and possible future approaches to building 
systems with improved security. Findings from this Safe Computing 
Workshop included the following: (1) attackers rule, disasters are 
likely; (2) short-term measures are essential but insufficient; (2) 
market forces won't change the balance; (3) usability and manageability 
must be part of the solution; (4) new technology can catalyze major 
changes; and (5) only a national initiative will make a real 
difference.
    The workshop participants also concluded that the timing of such an 
investment is particularly good now because (1) significant advances in 
technology have dramatically increased hardware processing, memory, and 
communication capacity; (2) there's a growing understanding of the 
problem among the public and government leadership as everyday cyber 
attacks like spam, phishing, and identity theft become increasingly 
painful; (3) industry's interest in cyber security continues to grow as 
the community becomes more adept at making a business case for 
improvements; (4) escalating attacks and damages are increasing across 
the globe; (5) major software vendors are willing to delay the release 
of their products for more than a year to forestall security 
embarrassments; and (6) without a major change in direction, 
adversaries will be able to exploit current weaknesses in US cyber 
security and could deal a critical blow to our country's major 
industrial sectors, such as banking, energy, and telecommunications. 
The workshop participants found a compelling and urgent need to 
dramatically reduce the vulnerability of the national information 
infrastructure to attack, and that major, strategic investments could 
significantly reduce our vulnerability over a five-year period.

Closing Remarks.
    Smoking Gun. Some of you might think, what's the rush? Where's the 
smoking gun--the indication of a major assault on US cyber 
infrastructure? Surely, it's coming, and it's no doubt already in its 
planning stages. We suggest three reasons for why this is so. First, 
strategic long-term damage requires substantial planning and very well-
timed execution. Creating the capabilities and placing the required 
assets (such as insiders) takes time, certainly years. Second, when 
such a cyber attack weapon is created, it's in some sense a one-time-
use strategic option. One wouldn't use it lightly, nor would one want 
to tip one's hand about it until it's really needed: such weapons may 
well be deployed already, and we wouldn't know it (perhaps a sleeper 
cell of insiders and/or malicious software embedded in our critical 
infrastructure). Finally, our current cyber infrastructure offers a 
wealth of highly valuable knowledge (such as advanced research 
results). As adversaries conduct espionage, they're also mapping our 
cyber space and gaining great experimental and training experience that 
will enable future strategic attacks. It's in the interests of our 
adversaries to preserve their upper hand for as long as possible and 
keep tapping into these important attributes. Moreover, such nation-
state network exploitations are becoming increasingly obvious to the 
point that the mainstream press regularly covers them.
    Secrecy. We don't advocate that a Cyber Manhattan Project be 
shrouded in secrecy: doing so would be unnecessary and deleterious to 
the program goals. The nation's best minds must work on this difficult 
problem, and many of them are to be found outside government in 
academia and industry. Excluding those minds by making the program 
secret would only decrease our chances of success. Obviously, it makes 
some sense to maintain the element of surprise about the details of 
some of our planned defenses, but these should be carefully thought out 
and very limited in scope. A design that counts on its own secrecy to 
succeed isn't a robust design at all: we all know how fleeting secrets 
can be.
    Stakes. But what if we don't do this? Ladies and gentleman, based 
on the vetted Dark Angel scenarios, we could compromise our country as 
we know it if we make a misstep today. Inaction isn't an option for any 
of us who now know these stakes and are entrusted by the people to 
provide for the common defense and protect the future of our great 
country. Thank you.

    Mr. Langevin. Dr. Maughan.

 STATEMENT OF DOUGLAS MAUGHAN, PROGRAM MANAGER, CYBER SECURITY 
 R&D, DEPARTMENT OF HOMELAND SECURITY, SCIENCE AND TECHNOLOGY 
                          DIRECTORATE

    Mr. Maughan. Chairman Langevin, Ranking Member McCaul, 
members of the subcommittee, thank you and good afternoon.
    Today, I will be sharing with you information on the 
cybersecurity research and development program in the 
Department of Homeland Security Science and Technology 
Directorate. I also will outline for you critical areas where 
new research and development efforts are needed. Details of the 
Directorate's program are included in my written testimony. I 
will provide a brief summary.
    The program's mission is to drive cybersecurity 
improvements in existing and emerging technologies; discover 
solutions to detect, prevent and respond to attacks on our 
critical infrastructure; and deliver new, tested solutions for 
cybersecurity threats, making them widely available to all 
sectors.
    Unlike other government programs, we cover all phases of 
the R&D lifecycle, not just research, but research, 
development, testing, evaluation and transition. Because our 
research is unclassified, we produce solutions that can be 
implemented for our customers in both the public and private 
sectors. We aim for results that can have impact in every home 
and business in the U.S. and throughout the world because cyber 
threats affect everyone.
    Consider the following: Cybersecurity breaches have real 
economic consequences. Internet users who shop online spend an 
estimated $8 billion per month. But according to a recent 
Consumer Reports survey, 86 percent of American internet users 
have changed their behavior due to fears of online theft; 25 
percent have stopped shopping online altogether for that 
reason.
    A 2005 Cybersecurity Industry Alliance study found that 65 
percent of American voters indicated that the government needs 
to do more to protect our information and systems from 
cybersecurity threats. Worldwide cyber attacks were estimated 
by the Congressional Research Service at a cost of $226 billion 
in 2003. The cost impact of these attacks is most certainly 
higher today.
    The DHS Cybersecurity Research and Development Program 
budget totaled $13 million in fiscal year 2007. The President 
has requested $14.8 million for fiscal year 2008. I would like 
to share with you some positive results that we have 
accomplished.
    We have funded small businesses and universities to solve 
near-term cybersecurity problems, such as malicious code 
detection, insecure wireless networks, open source software 
vulnerabilities and identity theft.
    We have funded research that has led to more than 10 open 
source and commercial products in the past 3 years alone. 
Examples include secure thumb drives, root kit detectors and 
security solutions for process control systems. We have brought 
together entrepreneurs, venture capitalists and system 
integrators to speed the transition of these innovative 
cybersecurity solutions for commercial and government use.
    We have created a cybersecurity testing environment 
comprised of a test network and test data sets containing real 
traffic data to support the research community.
    And we have led an international effort to advance the 
deployment of critical solutions required to secure the 
Internet infrastructure as called for in the National Strategy 
to Secure Cyber Space.
    We need to continue our efforts to bring these important 
cybersecurity solutions forward, but more is needed. The DHS 
Science and Technology Cybersecurity Program, in concert with 
our customers, has identified five research areas as priorities 
which we will continue to address as we face the future.
    We need to develop more secure versions of basic Internet 
protocols and architectures to ensure that the Internet works 
safely the way users expect it to.
    We need to create new ways to detect and contain attacks 
and develop resilient systems and detect and mitigate insider 
threats.
    We need to build research infrastructure and tools to 
support cybersecurity research and development efforts.
    We need to find new technologies to reduce the 
vulnerabilities in our process control systems that underlie 
our Nation's critical infrastructure.
    And we need to develop trusted systems and the metrics to 
assess them.
    Mr. Chairman and members of the subcommittee, the good news 
is we are making progress. The Directorate's research and 
development results show promise, and I look forward to working 
with you to address the security needs of the Nation's critical 
infrastructure.
    Thank you. I look forward to answering any questions you 
may have.
    [The statement of Mr. Maughan follows:]

               Prepared Statement of Dr. Douglas Maughan

    Chairman Langevin, Ranking Member McCaul and Members of the 
Subcommittee, thank you and good afternoon. Today, I will be sharing 
with you three important aspects of our work in cyber security research 
and development in the Department of Homeland Security (DHS) Science 
and Technology (S&T) Directorate, including our efforts to:
        <bullet> Drive security improvements in existing technologies 
        and emerging systems.
        <bullet> Discover solutions to detect, prevent and respond to 
        cyber attacks on the Nation's critical infrastructure.
        <bullet> Deliver new, tested solutions for cyber security 
        threats and make them widely available to all sectors through 
        technology transfer and other methods.
    The S&T Cyber Security R&D goes through the full R&D lifecycle--
research, development, testing, evaluation and transition--to produce 
unclassified solutions that can be implemented for our customers in 
both the public and private sectors. Therefore, we are able to move 
these solutions from the lab to real life, so they reach the U.S. 
businesses and citizens who need them to secure their networks. It 
means that the results of our research can have an enormous impact in 
every home and business in the United States, as well as throughout our 
government and the world. In the past three years alone, the DHS 
Science and Technology Directorate has funded research that today is 
realized in more than 10 open-source and commercial products that 
provide capabilities such as: secure thumb drives, root kit detection, 
worm and distributed denial of service detection, defenses against 
phishing, network vulnerability assessment, software analysis, and 
security for process control systems.
    Cyber threats pose an ever-growing risk to our national and 
economic security. We face enormous challenges in our ability to meet 
or even anticipate those threats. Today, I hope to describe briefly for 
you: the scope of the problem; and the positive steps we are taking to 
drive, discover and deliver new solutions.
    The events of September 11, 2001, made clear that the security of 
our Nation and our economy are intertwined. The majority of government 
communications utilize private-sector networks, including critical 
infrastructures--such as information technology, communications, 
financial services, electricity, and oil and gas systems. These 
networks have proven interdependencies that are critical to response 
capabilities as well as business operations. The systems of these 
sectors have converged and are interconnected. For example, if the 
electrical grids fail, that failure impacts the communications systems, 
which in turn can hamper financial networks.
    The Internet connects all other networks, including our Nation's 
critical infrastructure. It has become the central nervous system for 
our government, our citizens and our industries. When it is attacked, 
the effects can ripple far and wide. Although the Internet was 
developed to provide ``essential minimum communications'' in the event 
of a nuclear attack, it was not designed with security in mind. Thus, 
the technology that is deployed over most of the Internet today has 
vulnerabilities that can be exploited, endangering all the connecting 
networks, including our critical infrastructures.
    Beyond the Internet, few of the technologies we use every day are 
adequately protected against malicious attacks. Cell phones, PDAs, and 
wireless networks are vulnerable, as are the supervisory control and 
data acquisition (SCADA) systems underlying our critical 
infrastructure. Attacks on these technologies have forced us into a 
defensive posture, and the financial costs are significant. Attackers 
can reach our business and government systems through the maze of 
networks connected by the Internet.
    A 2004 Congressional Research Service (CRS) report stated that 
cyber attacks on publicly traded firms resulted in losses of 1 percent 
to 5 percent on the firms' stock price in the days following an attack. 
For the average New York Stock Exchange company, this means shareholder 
losses in the range of $50 million to $200 million. CRS reported that 
total losses worldwide in 2003 attributed to viruses, worms, and all 
other hostile digital attacks were $226 billion. These attacks can come 
from rogue actors (such as script kiddies, disgruntled employees, and 
organized crime), terrorists, insiders, and other nation states.
    But it is not just companies and governments at risk: Our citizens 
also are vulnerable. Government action can help protect U.S. consumers 
who, in many cases, cannot adequately protect themselves from threats 
that come from our cyber infrastructure. Countering these threats 
requires the deployment of new technologies across the global 
infrastructure.
    Americans make extensive use of the Internet. March 2007 global 
statistics indicate there are more than 210 million Americans--70 
percent of our total population--using the Internet. On their private 
computers, our citizens are targeted by viruses, worms, and phishing 
schemes. Their computers may be used as launching pads for attacks 
against other systems, unbeknownst to the computer owner. To date, more 
than 150 million records containing personally identifiable information 
have been exposed since January 2005, according to the Privacy Rights 
Clearinghouse.
    According to a 2005 Consumer Reports survey in the U.S., 86 percent 
of Americans who go online have made at least one behavior change due 
to fears about online theft. 29 percent have cut back on shopping 
online, and another 25 percent have stopped shopping online altogether. 
A 2006 survey from the Cyber Security Industry Alliance (CSIA) found 
that Internet users who do shop online indicate that they spend an 
average of $116 per month per person--an estimated $8 billion per month 
in total--but that half of all users avoid making purchases because of 
fear of identify theft or compromise of financial information.
    Indeed, citizens want the Federal government to bring forward cyber 
security protections. A 2005 survey of U.S. voters--both Internet users 
and non-users--conducted by CSIA found that respondents look to the 
U.S. government to help with cyber security issues. Sixty-five percent 
of the respondents indicated that the government needs to do more to 
protect information and systems.
    In fact, the Department of Homeland Security's Science and 
Technology Cyber Security program serves all of these customers, which 
include both DHS internal components and private sector entities: Cyber 
Security and Communications (which includes the National Cyber Security 
Division and the National Communications System), U. S. Secret Service, 
DHS Chief Information Officer (CIO), Internet infrastructure owners and 
operators, critical infrastructure providers, and the information 
security research community. The Directorate leads the government's 
charge in funding cyber security research and development that results 
in deployable security solutions, as directed by the President in the 
National Strategy to Secure Cyberspace. Our research and development 
funding is targeting the critical problems that threaten the integrity, 
availability, and reliability of our networks. We provide solutions and 
research resources that advance our understanding of cyber security 
risks. Our goals are:
        <bullet> To protect our national and economic security 
        interests and secure our homeland.
        <bullet> To enable the government, industry, and citizens to 
        make better-informed decisions about cyber security risks.
        <bullet> To provide the resources needed to counter and 
        mitigate these risks.
    The United States played a formative role in the Internet's 
creation, and is home to ten of the thirteen root servers that control 
the communications flowing over the Internet. However, today's security 
vulnerabilities cannot be addressed in isolation. Today, there are 243 
countries connected to the Internet and approximately 1.2 billion 
online users worldwide. It is a global problem that affects 
governments, businesses, and citizens. To get this important work done, 
the S&T Cyber Security R&D program carefully collaborates with private 
industry, Federal agencies and other governmental entities, and 
private-sector partners in other nations, reflecting the truly global 
nature of the Internet.
    There are legal issues and international coordination issues that 
need to be addressed, but there are also complex technical problems 
that need to be solved. The price tag for this research and development 
is high, but it is minimal compared to the cost of cyber attacks today. 
Let me restate for the members of the Subcommittee that worldwide cyber 
attacks were estimated by CRS at a cost of $226 billion in 2003. The 
cost impact is most certainly higher today. The Department of Homeland 
Security's Science and Technology Directorate's cyber security research 
and development budget totaled $13 million in FY 2007 and the President 
has requested $14.8 million for Fiscal Year 2008.
    Today, I'm going to discuss three important areas where we are:
        <bullet> Driving security improvements to address critical 
        weaknesses in the Internet's infrastructure
        <bullet> Discovering new solutions for emerging cyber security 
        threats, by incubating ideas and innovation in safe testing 
        environments and public-private partnerships
        <bullet> Delivering new technologies tested in a real-world 
        environment and making them widely available for real-world 
        users in all sectors
    I also will describe for you those research areas identified in 
concert with our customers that are ongoing priorities which we will 
continue to address in FY2007, FY 2008 and beyond:

Driving Security Improvements to Address Critical Weaknesses
    The Department of Homeland Security's Science and Technology 
Directorate is leading efforts to secure two of the Nation's major 
technology vulnerabilities: security weaknesses in the Internet's 
domain name system, or DNS, and vulnerabilities in the Internet routing 
system. Attacks against these two parts of the Internet infrastructure 
are particularly insidious because computer users cannot detect them. 
Attack traffic is estimated to have skyrocketed 150-fold since 2000.
    Both domain name system and routing vulnerabilities can deny 
service to small or large portions of the Internet, make tracking and 
tracing Internet communications very difficult, or allow communications 
to be redirected without the user's knowledge. In the dot-com and dot-
net domains alone, domain name queries are made an average of 24 
billion times a day, yet Internet users have no guarantee that they 
will reach the Web site they want when they enter its address in a 
browser. Symantec's most recent Internet Security Threat Report notes 
that, in the first six months of 2006, spam made up 54 percent of all 
monitored e-mail traffic. Much of that spam takes advantage of 
weaknesses in the routing system, and uses it to mask spammers' 
identities, making it difficult, if not impossible, to track them down 
and prosecute them.
    U.S. government leadership in addressing these critical 
vulnerabilities is essential, and the President's National Strategy 
calls on DHS to drive the efforts to bring solutions forward. By 
working in a collaborative effort across Federal agencies, private 
industry, and global Internet owners and operators, the DHS Science and 
Technology Directorate has made progress toward addressing these 
problems. In cooperation with NIST and the Department of Commerce, our 
Directorate leads the effort to develop domain name security extensions 
(DNSSEC), and we work with international counterparts and key technical 
groups to develop improvements to the standards that govern addressing 
and routing.
    Both of these infrastructure security problems have, or soon will 
have, solutions driven by our government's leadership. The remaining 
challenge lies in convincing the many owners and users of the Internet 
to deploy them, from private industry and foreign governments to our 
own state, local and federal agencies in the U.S. New requirements 
under the Federal Information Security Management Act (FISMA) call for 
DNS security extensions to be deployed across all federal agencies and 
their contractors. A few other countries, notably Sweden, have already 
deployed the important DNS security solution.
    The private sector also is starting to follow the government's 
lead. Two major corporations working in software and information 
security also have announced plans to include DNS security extensions 
in their products going forward. Microsoft, which supplies the 
operating system for the vast majority of the U.S. government's desktop 
computers, will include the new DNS security protocols in a forthcoming 
upgrade of its software. VeriSign also has announced that it will 
include the DNS security protocols as part of an expansion that will 
enable it to handle more than four trillion domain name system queries 
per day. Many more government agencies and industries must take similar 
steps if we are to secure the Internet infrastructure.
    The government has a special role to play in coordinating the 
deployment of these solutions. The S&T Cyber Security R&D program is 
positioned to carry this work forward. Building on our research and 
development efforts, the government can play an even greater leadership 
role by taking steps to ensure the government-wide deployment of DNS 
security extensions and secure routing technologies, when available.

Discovering New Solutions for Emerging Cyber Security Threats
    We cannot focus solely on known problems. One of the most important 
aspects of cyber security R&D involves understanding new threats and 
risks, and discovering solutions that will help us protect our Nation's 
cyber infrastructure. Because the research we conduct is unclassified, 
it can be deployed by the private sector. The S&T Cyber Security R&D 
program funds two efforts that provide a safe environment for cyber 
security research. Using small business innovation research funding and 
other programs in our Directorate, we also provide funding that helps 
bring forward the next generation of cyber solutions so they can be 
adapted for wider use against emerging threats. With more than 30 small 
business innovation research grants in progress today, as well as other 
funds, we are incubating ideas that emanate from small companies and 
devising solutions for emerging problems that will affect major 
sectors.
    The need to create, test, and learn from potential threats poses a 
problem in itself. We want to test threats to the Internet, but if we 
conduct such R&D testing on the actual Internet, we could inadvertently 
put it at risk. To provide scientifically rigorous testing for next-
generation cyber defense technologies, the DHS Science and Technology 
Directorate funds a cyber security testing environment, comprised of a 
test network, and test data sets containing real-traffic data.
    The network, called the Cyber Defense Technology Experiment 
Research Testbed Program, or DETER, offers cyber security researchers a 
way to run experiments on a secure ``virtual Internet,'' keeping the 
Internet safe. This testbed was jointly funded with NSF and now more 
than 50 organizations from more than 20 states--which includes major 
research universities, national laboratories and high-tech companies--
are using the DETER test bed. The test bed began with 200 systems, and 
has been increasing by 200 per year with a goal of 1,000 systems spread 
across six sites by FY09.
    In addition to a test network, researchers need data sets to use 
for testing their solutions. These data sets, however, have not 
existed, impeding effective testing of potential technologies. For 
example, the most widely used data source today was created in 1998 by 
the Defense Advanced Research Projects Agency (DARPA). Traffic data 
that is nine years old cannot be used to analyze today's attacks, 
viruses, malicious code, and traffic patterns.
    The S&T Cyber Security R&D program created and funded the Protected 
Repository for Defense of Infrastructure Against Cyber Threats, or 
PREDICT program, to serve as a repository for a collection of datasets 
that can be used for testing new ideas and solutions. PREDICT provides 
datasets for information security testing and for the evaluation of 
maturing network technologies, to help advance them toward commercial 
development. The PREDICT data repository also is designed to hold 
datasets which can be collected from private companies, without 
violating their proprietary concerns, for sharing with network security 
researchers. The PREDICT program has taken groundbreaking steps to 
ensure that data privacy is protected, including reviewing the project 
with major privacy organizations.
    As I noted earlier, another critical area of focus for the DHS 
Science and Technology Directorate is the development and deployment of 
the next generation of cyber security technologies that we need if we 
are to effectively face emerging threats to our Nation's critical 
infrastructure. We solicit research proposals for new technologies, 
prototype technologies and mature technologies, so that our investment 
yields solutions that are poised for commercial adoption. Under the 
first round of this research funding effort, we awarded $13.8 million. 
The $13.8 million funded projects in 12 states: California, Delaware, 
Georgia, Massachusetts, Maryland, Michigan, Minnesota, New Hampshire, 
New Jersey, New York, Texas, and Virginia.

    Let me give you some examples of projects we've funded in this 
area:
        <bullet> In California, Stanford University researchers are 
        identifying and fixing serious bugs in open source code for 
        freely available software. Widely used, open source software 
        makes up a large part of the Nation's cyber-infrastructure, and 
        this effort has lead to tools that are available through a 
        commercial company named Coverity, located in San Francisco and 
        Boston.
        <bullet> In Ann Arbor, the University of Michigan's researchers 
        are working on a secure crisis response system using handheld 
        devices. Using low-cost disposable handheld devices, first 
        responders will be able to have a secure mobile coordination 
        and syndication channel--a lightweight means for interagency 
        communication and coordination using industry-standard wireless 
        and cell phone technologies, while keeping data transmission 
        secure. This project partners with Lucent Technologies for 
        commercial deployment.
        <bullet> At Dartmouth College, researchers are analyzing 
        wireless traffic to detect and respond to attacks on a WiFi 
        network. The project is working with Aruba Networks of 
        Sunnyvale, California, a very large wireless vendor in the 
        United States, to develop and deploy an operational prototype 
        and evaluate it with real-time users.
    Additionally, we are partnering with the financial sector to assess 
the economic impact that a cyber security attack might have on 
individual enterprises, and developing tools to help financial 
companies assess and manage the risks that such a disruption of service 
could create.
    Working with companies like Citigroup and Pershing LLC, a brokerage 
subsidiary of the Bank of New York, we have created a prototype of a 
risk management tool for the finance sector. It is designed to help 
create a computer simulation of a financial enterprise and its value 
chains, and how they interconnect with other institutions. Once it is 
finalized, the tool will allow them to create and run disruption 
scenarios tailored to their business operations, using their own 
proprietary data as well as generic data for the rest of the financial 
sector. In this way, they can find out specifically how a cyber 
security event or attack will affect their business, using real-time 
sector data while protecting their companies' proprietary data.
    I want to underscore the special role that government funding has 
played in developing this prototype. No single financial company would 
build such a tool and share it with competitors; however, because of 
support from our Directorate, the entire financial sector will be able 
to assess and protect itself against emerging cyber security threats, 
protecting our Nation's critical infrastructure.

Delivering New, Tested Technologies Widely Available for All Sectors
    New cyber security solutions do not appear in products 
automatically. Technology transfer from the lab to the marketplace is a 
vital and unique aspect of our Directorate's cyber security R&D effort. 
The S&T Cyber Security R&D program extends beyond knowledge and the 
proof of whether security solutions are feasible. Based on this 
foundation of rigorous research and development, we create public-
private partnerships, acting as a catalyst to deliver new, tested 
technology solutions for cyber security threats and make them widely 
available for use in all sectors.
    One important test we have conducted focused on handheld wireless 
devices, like the BlackBerry and other mobile data communications 
devices. These devices are expected to proliferate within government 
agencies. According to a 2005 survey in Government Computing News, 40 
percent of all government managers report that they use some form of 
handheld wireless device. Hundreds of thousands of these devices are 
currently employed in government business, yet today, most mobile data 
architectures cannot sufficiently assure high-level government 
security.
    To address those issues, and to identify the needs in 
infrastructure protection and border security, we conducted an 
experiment under the bilateral Public Security Technical Program 
between the United States and Canada. It is just one of many efforts by 
the DHS Science and Technology Directorate to evaluate technologies in 
a real-world environment and pass on the results to real-world users. 
Our research was looking for new technology for mobile data encryption 
across the US-Canada border, to learn whether additional security 
measures would slow down communications across the borders, and to help 
first responders tackle their tasks efficiently while keeping their 
messages secure. We tested four products of interest, including the 
BlackBerry, and learned a great deal about what does and doesn't work, 
particularly situations in which messages were delayed, or data were 
not transmitted.
    Another important public-private partnership is Project LOGIIC, 
which stands for Linking Oil and Gas Industry to Improve Cyber 
security. The goal is to reduce vulnerabilities in the oil and gas 
process control system environments. The first demonstration under this 
project showed how to correlate and analyze abnormal events to identify 
and prevent cyber security threats.
    Project LOGIIC is a model for government-industry technology 
integration and demonstration efforts to address critical research and 
development needs. The oil and gas industry contributed the 
requirements, operational expertise, project management, and product 
vendor channels. DHS provided the national security perspective on 
threats, access to long-term security research, independent researchers 
with technical expertise, and testing facilities. Technology pilot 
deployments under this program were launched in June of 2006. A 
planning meeting for the second phase of the LOGIIC partnership took 
place in March of this year.
    Our Directorate also convenes a group called the Identity Theft 
Technology Council, which meets three times a year to bring together 
government, venture capital firms, financial sector representatives, 
academics working in identity theft, and entrepreneurs. Together, we 
discuss problems, research issues, available technologies, and stay 
abreast of emerging threats and new opportunities. As a result, venture 
capital firms and the companies that they fund can connect with 
government and larger private-sector entities to move emerging security 
solutions forward. The Council also works closely with the Anti-
Phishing Working Group, and has issued two reports: one on phishing and 
one on malware.

    To help technology move out of government research and development, 
we have sponsored three different types of transition forums:
        <bullet> At the System Integrator Forum, researchers funded by 
        the DHS Science and Technology Directorate were provided an 
        opportunity to demonstrate their technology to an audience of 
        major system integrators, including Perot Systems/EDS, Northrop 
        Grumman, and General Dynamics, all of whom responded 
        enthusiastically.
        <bullet> The Emerging Security Technology Forum provided an 
        opportunity for commercial developers to demonstrate their 
        technology to an audience of government early adopters. Our 
        Directorate evaluated 24 commercial technology products to 
        defend against distributed denial of service and worm attacks, 
        and selected 12 for presentation to an audience of government 
        and industry CIOs and potential customers.
        <bullet> Finally, the IT Security Entrepreneurs Forum--jointly 
        sponsored with the Kauffman Foundation--provided small 
        businesses and entrepreneurs an opportunity to learn value 
        propositions and business plan development from the venture 
        capital community and how to open doors into government 
        procurement channels. Chief information officers attended from 
        companies like Sun and Oracle.
    The impact of these forums cannot be overstated. They are unique 
within the federal system. We bring researchers directly to the private 
sector, so they can demonstrate their technologies in front of more 
than 100 companies at a time. As I mentioned earlier, this has led to 
more than 10 commercial cyber security products--real cyber security 
solutions that can be widely used by government, industry and citizens 
around the world. These forums assist projects funded by our Science 
and Technology Directorate to transfer technology to larger, 
established security technology companies. Finally, they also help 
commercial companies provide technology to DHS and other government 
agencies.

    Driving, Discovering and Delivering Cyber Security Solutions: The 
Path Forward
    In the last seven years, more than 20 reports from such entities as 
the INFOSEC Research Council, the National Science Foundation, the 
National Institute of Justice, the National Security Telecommunications 
Advisory Committee, the National Infrastructure Advisory Council, the 
National Research Council and the President's Commission on Critical 
Infrastructure Protection have urged the government to do more to 
drive, discover and deliver new solutions to address cyber 
vulnerabilities. More recently, academic organizations, such as the 
Computing Research Association, and industry groups, such as the Cyber 
Security Industry Alliance and the Internet Security Alliance, also 
have called for increased funding for cyber security research and 
development. In addition, the Federal Government has recently produced 
the Federal Plan for Cyber Security and Information Assurance Research 
and Development, which includes cyber security R&D priorities of all 
agencies and departments that participate in the Network and 
Information Technology Research and Development (NITRD) committee.
    To date, I believe that the Department of Homeland Security's 
Science and Technology Directorate has made excellent progress toward 
meeting some of the goals outlined in the National Strategy to Secure 
Cyberspace. We need to stay the course and bring these important 
research and development products into the marketplace. But more needs 
to be done if we are to counter the negative forces that threaten our 
cyber security.
    Based on the previously cited reports which reflect the views of 
the professional community and in concert with our customers, the DHS 
S&T Cyber Security program has identified the following research areas 
as priorities which we will continue to address in FY2007, FY 2008 and 
beyond:
        <bullet> We must continue to advance the development and 
        accelerate the deployment of more secure versions of 
        fundamental Internet protocols and architectures, including 
        those for the domain name system and routing protocols 
        described earlier.
        <bullet> We must improve and create new technologies for 
        detecting attacks or intrusions, including monitoring 
        technologies.
        <bullet> We must improve and create new methods for mitigation 
        and recovery, including techniques for containment of attacks 
        and development of resilient networks and systems that degrade 
        gracefully.
        <bullet> We must develop and support infrastructure and tools 
        to support cyber security research and development efforts, 
        including modeling and measurement, test beds, and data sets 
        for assessment of new cyber security technologies, such as the 
        DETER and PREDICT programs I described earlier.
        <bullet> We must assist the development and support of new 
        technologies to reduce vulnerabilities in process control 
        systems.
        <bullet> We must test, evaluate, and facilitate the transfer of 
        new technologies associated with the engineering of less 
        vulnerable software and securing the IT software development 
        lifecycle.
        <bullet> We need research to identify new solutions to address 
        malicious software, such as botnets and other ``malware,'' for 
        which no secure solutions currently exist.
        <bullet> We must develop trusted systems, new hardware and 
        software architectures for security, and develop cyber security 
        metrics.
        <bullet> We must develop tools that will allow us to visualize 
        network data so we can see where attacks are coming from and 
        diagnose cyber security problems faster and with more accuracy.
        <bullet> We must develop new ways to detect and mitigate 
        insider threats in cyber security.
        <bullet> We must develop the architecture and solutions that 
        will allow us to handle identity management on a wider scale 
        than is currently possible.
    I want to stress for the Subcommittee that research and development 
involves both promise and progress. The promise lies in our ability to 
identify threats and potential solutions. But as long as these vital 
research and development questions remain unanswered, they threaten all 
of the progress we have made to date, creating weaknesses and 
vulnerabilities that further complicate our task. The same is true for 
the areas where we have already made valuable steps forward.
    We need to deploy the important infrastructure protections we have 
helped to develop--across the government and throughout the private 
sector--and provide incentives for industry to partner in R&D efforts. 
We need to move forward the already identified next-generation cyber 
technology research projects that take aim at weaknesses we know today. 
And we must continue to deliver tested technologies that can become 
commercially available products, to extend the benefits of our research 
and offer protection against cyber threats to homes and businesses 
across the Nation.
    The good news, Mr. Chairman and Members of the Subcommittee, is 
that our research and development efforts show promise in addressing 
the Nation's cyber security needs. I look forward to working with you 
to advance our R&D efforts and address the security needs of our 
Nation's critical infrastructure.

    Mr. Langevin. I want to thank the panel for their 
testimony.
    I want to remind each member he or she will have 5 minutes 
to question the panel, and I now recognize myself for 
questions.
    Dr. Saydjari, let me begin with you. You gave a pretty 
sobering assessment which you laid out. I would like to ask the 
panel to comment on what Dr. Saydjari testified to and if you 
agree with the assessment. If not, would you expand on that? 
Dr. Geer.
    Mr. Geer. Well, sure. The threat is real. We have been, to 
a large degree, lucky that we haven't seen it in grander form, 
that there hasn't been a major episode.
    One could say that--it is quite natural for most people--I 
expect everybody in this room, certainly my family, for 
example, to say that, because nothing big has happened that 
they are aware of, that somehow the risk must not be as great 
as people like Dr. Saydjari or myself or other members of the 
panel say it is.
    If you would accept the idea that if we have ever escaped a 
bad event sheerly by luck, that at least you can put behind 
yourself the argument that the absence of any major episode to 
date is reassuring, I can give you one thought experiment that 
illustrates that we have at least once avoided major disaster 
by accident. It would be this.
    9/11 riveted the country. Everybody paid attention, et 
cetera. A week later a then-the-worst-we-had-ever-seen virus 
came by, something called Nimda. Like most virus writers, the 
person involved--like most good virus writers, amongst other 
things this person left behind what is called a back door, an 
ability to reenter the computer that they had previously 
invaded, but by simpler means. So even if it turned out we knew 
how Nimda got in in the first place and we closed that door, 
there would be another door remaining behind. A little bit like 
if I broke into your house and made a house key.
    That idea of leaving behind a new back door is interesting. 
Nimda at the time spread faster than we had ever seen anything 
spread. Hands down the fastest we had ever seen. Since then, 
there have been faster still, but at the time it was the 
fastest we had ever seen.
    Since all old viruses can be found somewhere on the 
Internet at any given time, they never actually go away, let me 
bring one of them up.
    In 2001, a great deal of the Internet was still dial-up. A 
lot of people accessed it by dial-up. There is a virus called 
E911 which causes your modem to dial 911 constantly. When I 
call you on the telephone, the line doesn't drop until I hang 
up. When I call 911 on the telephone, the line doesn't drop 
until you hang up, because you don't want the police to be able 
to say who was I talking to when somebody cuts the wire. 
Consequently, you can saturate a 911 console.
    Where we got lucky, no clown had the bright idea to chase 
the Nimda virus using its newly installed back door and install 
the E911 virus cross-country. Because, if they had, all 911 
services in the U.S. would have gone off the air in a matter of 
a couple of hours. That would have had, if nothing else, been a 
gran mal seizure of the public confidence.
    So if you accept the argument that we have at least once 
escaped a major event by dumb luck, then I think you can put 
behind yourself any argument that is it really a big deal or 
not. It really is a big deal if at least once we can show we 
have escaped a major problem by dumb luck, and I think I just 
gave you one.
    Mr. Langevin. Thank you.
    Dr. Lewis.
    Mr. Lewis. Thank you.
    I am the skunk at the party here because I don't really 
agree with this. Part of the reason I don't agree with it is 
because I do have some military experience, not as a member of 
the military but as somebody who worked closely with them; and 
I know how hard it is to derail a country. Even a third-world 
country turns out to be much harder than we might suspect. Let 
me tell you the reasons that I do think that.
    While we do face serious problems on the informational 
side, on the intelligence side, I think some of the other risks 
are easy to overestimate. Some of the research that I would 
base this on comes out of the strategy bombing survey that was 
conducted at the end of the World War II by the United States, 
and I would be happy to provide the committee with additional 
information.
    The first thing you have to ask yourself, though, is how 
resilient is a country? If there is one attack, people don't 
sit around; they respond. And so how long will it take people 
to get back on line or to restore some kind of service?
    The second thing you want to ask is, a very big country 
turns out to be hard to derail; and you have all had this 
experience. The experience I usually refer to is Charlotte, 
North Carolina, which was taken off line for a week. No one 
knows about it because of snowfall and they had electronic 
power outrageous and all that.
    You can remove major cities from the power grid and 
telecommunications network. It has no effect on our military 
power or, honestly, on our economy. A lot of this has to do 
with political leadership and culture.
    One of the things I have said in the past is, if we were 
perhaps one of the more feeble European countries, if we were a 
more excitable country, when there was an outbreak maybe we 
would collapse. We have seen that happen. We have seen it 
happen in the past. But I think Americans are a little tougher. 
A lot depends on the leadership they see. If their leaders say 
the right things, they will respond the right way.
    Finally, you want to ask yourself how interconnected are 
networks. There are few networks that are tightly 
interconnected, whether it is electrical, telecom, the 
financial network. These are things where you could have a 
national level attack and you could have that kind of affect, 
but most of the other stuff isn't that connected. So if you 
knock out one city or one State or one water company, you are 
not going to have a national effect.
    So, for me, we need to look at the informational attacks, 
we need to look at espionage, and we need to look at a few 
critical networks that are interconnected. That is where there 
is risk. I am a little more relaxed on some of the other 
things.
    Mr. Langevin. Dr. Maughan.
    Mr. Maughan. I would have to say I agree with Mr. Saydjari 
in his discussion.
    I will remind you that our enemies are going to continue 
advancing their capabilities and their technologies. And so 
while we may decide to sit still and that we are OK they are 
going to continue to advance and things are only going to get 
worse. I believe the investment that he called for is at a bare 
minimum to just keep up and may not even get us ahead.
    Mr. Geer. May I add something, if I could, on this?
    Mr. Langevin. Briefly, please.
    Mr. Geer. This is a definitional question, perhaps, back to 
you.
    An attack that breaks things versus an attack that breaks 
public confidence, what I spoke to was something that breaks 
public confidence. I think the public confidence in, for 
example, our financial networks can be broken without making 
the entire network lay down and stay down. And so I guess 
perhaps what we should be pushed about is define collapse or 
define breakage. We may be in violent agreement once we get 
past that.
    Mr. Langevin. Dr. Saydjari, would you care to comment on 
what you heard, particularly with Dr. Lewis' comments?
    Mr. Saydjari. Yes, I would.
    I think, first, I would point out there are 50 of the 
Nation's leaders signing this letter of the President 
estimating this risk at this level, including a former DCI, a 
former director of NSA and a former director of DARPA. That is 
no small level of talent in making this estimation.
    The second thing I would point out is that we did a very 
detailed analysis for this very reason, because there are 
people who believe that the threat is overestimated. We took a 
risk in developing this mock campaign against the United States 
to develop it to prove that this is possible, and so we believe 
that there is evidence that stands that says that this threat 
is possible. Every part of that attack analysis was vetted with 
various government agencies and the various sectors that were 
involved in the attack, including power, including oil and gas, 
financial service sectors and telecommunications.
    We believe firmly in our analysis, and we believe that it 
stands on its own merits, and we invite an independent 
evaluation and an extension. That is indeed what we meant by 
calling for a national threat assessment to validate our 
findings and extend them so that we can develop sound policy 
and settle this debate as to whether the threat is higher or 
lower than what we are estimating.
    Mr. Langevin. Thank you.
    I am going to have other questions for the panel that you 
may have to respond to in writing, but my time is expired so I 
am going to yield to the gentleman from Texas, Mr. McCaul, for 
5 minutes.
    Mr. McCaul. I thank the Chair.
    There is so much to talk about here I sometimes don't know 
where to start. I am going to have to leave after this for a 
briefing from General Petraeus. So if the Chair would indulge 
me, I would like to throw everything out in one question.
    Dr. Geer, you said what you can't see is more important 
than what you can; and I agree with that. I think the threat of 
the Trojan horse in this scenario is perhaps more devastating 
than what we can see.
    Dr. Lewis, you talked about foreign agents broke into the 
Department of Defense and stole file cabinets. That would cause 
hysteria in the media. And yet we know we have intrusions in 
the Federal Government's networks, and I don't know if we have 
an idea as to what is being stolen.
    You talked about metrics. I don't think we can gauge or 
hold accountable if we don't know what they are taking. A 
technical idea of attack data. We don't know where these 
attacks are coming from, but we know they are coming. And there 
are several levels of these attacks. One may be purely for 
mischief, one could be criminal, another espionage. As you 
point out, I think we talked a little bit about China and its 
willingness and capacity to steal information, steal secrets, 
intellectual property theft.
    But the last scenario that Mr. Saydjari really kind of 
focuses on is one that really keeps me up at night, and that is 
the idea of a cyber attack that is along the lines of warfare. 
An attack we know that our own military is capable of doing and 
shutting down power grids in other countries, yet we don't know 
what some of these rogue nations, what their capacity and 
capability really is. We do know that any nation with a power 
grid can probably figure out how to shut it down.
    I think the ramifications are--I know, Dr. Lewis, maybe 
there has been some exaggeration, but maybe not. To the extent 
this country could be shut down, albeit temporarily, I think 
the destruction it would cause is very clear.
    The idea of a national threat assessment just to gauge 
where are we, you threw a number out that is about 10 times 
more than what we authorize in R&D for cybersecurity. And I 
throw this out to the panel, and I appreciate the Chair 
indulging me on the time, but if you could talk, first of all, 
Mr. Saydjari, about the threat assessment that you did and what 
the results were and then possibly talk about--when you say 
vulnerable to nation-state adversaries, who do you think they 
are, specifically? And then I will open it up to the panel for 
just a full discussion.
    Mr. Saydjari. Sure. The development that we do is called 
Dark Angel. This was a mock attack by seven of the leaders, 
Professionals for Cyber Defense, this nonprofit group; and we 
developed a detailed attack tree against our Nation. The 
purpose of it was to do a strategic blow to our country; and we 
looked at various domains, including the financial services 
sector, telecommunications, power, oil and gas. We looked at 
all of them.
    One of the things that has been lacking to date is sort of 
an isolated look at each of the domains. What we looked at is 
looking at it from a nation-state's perspective about doing 
strategic damage and looking at the interconnections between 
those domains and doing a campaign, including rolling attacks 
on various symptoms. Once they recover, attack them again. 
Attack in a way that actually disables physical things, like 
power generators.
    We are not talking about small-scale power outages for a 
day or two. We are talking about destroying power generators by 
improper control. We are talking about blowing up transformers 
by improper control. And these generators and transformers take 
months to remanufacture. And, oh, by the way, some of them we 
can't manufacture in the United States anymore. We have to go 
to Europe to get it. So if that attack happens in Europe at the 
same time, guess who is going to get priority on those 
transformers and power generators?
    So we did this detailed analysis. We have this very, very 
sophisticated attack tree that has been deeply vetted by 
various domain experts. We did this over the course of 30 days 
in response to a comment on the President's national strategy 
to sort of put up our position that there was a serious 
national threat and we were forced into developing this 
scenario. And we believe it is absolutely compelling.
    Again, we don't make this publicly available, but we invite 
a limited review to say, OK, you don't think the threat is this 
bad? Great, come look at what we did, extend what we did.
    Mr. Langevin. Will the gentleman yield for one second?
    You said this is in the context of an attack from a nation-
state. Could it also translate over into a rogue individual or 
individuals such as a terrorist group carrying out the same 
level of attack with the same type of catastrophic 
consequences?
    Mr. Saydjari. Our assumption was a $500 million budget and 
about 3 years of preparation. So an individual certainly could 
not do this. But a transnational terrorist group like al-Qa'ida 
certainly could. In fact, that was our model as a transnational 
terrorist organization or a small nation-state. Certainly a 
large nation-state is well within their means and well within 
their patience.
    And I point out also that we are not just assuming cyber 
attacks, we are assuming insider attacks, we are assuming 
malicious code, we are assuming lifecycle attacks, where 
somebody attacks the code that is being developed and gets code 
that blows up on us on the fly at their discretion. So we are 
talking about a very sophisticated attack from a military 
perspective against the United States.
    Mr. McCaul. Again, that is my greatest fear, particularly 
if it comes from a terrorist rogue nation. Did you brief the 
Department of Homeland Security on this assessment?
    Mr. Saydjari. Yes, sir. In about the March or April time 
frame of 2005 we did do that briefing. And they politely heard 
our briefing, and we saw no follow-up activity or actions from 
that briefing.
    Mr. McCaul. Is that correct, Dr. Maughan? Was there no 
response?
    Mr. Maughan. That briefing was provided to the National 
Cybersecurity Division, not to the Science and Technology 
Directorate.
    Mr. McCaul. And so you can't answer on behalf of anything 
outside your Directorate?
    Mr. Maughan. Correct.
    Mr. McCaul. Do you think the idea of a national threat 
assessment is a good idea?
    Mr. Maughan. Yeah. The Department has been out doing 
physical assessments of a lot of the critical infrastructure 
owned and operated by the private sector. We should do a 
similar from a cyber perspective, both government and industry, 
given that industry owns and operates a significant portion of 
that infrastructure.
    Mr. McCaul. I personally think it would be a good idea to 
be able to measure that, as Dr. Geer talks about, the metrics. 
Can you comment about this kind of worst-case scenario?
    Mr. Geer. Sure. You mean, give you an example of one?
    Mr. McCaul. Yes.
    Mr. Geer. Do you want to take the Internet down this 
afternoon?
    Mr. McCaul. I kind of would like to stay out of jail.
    Mr. Geer. Well, so would I. Figure out how to worm IOS, 
which is the operating system for Cisco routers, which dominate 
the top level of the Internet. Go in and have them rewrite the 
EPROMs as fast as you can go. 50,000 cycles, they burn out, you 
now have to have to visit it with a soldering iron 3 minutes.
    Mr. McCaul. Dr. Maughan, do you consult with experts like 
Dr. Geer in terms of anticipating vulnerabilities?
    Mr. Maughan. We do, and we try to bring in the experts 
every chance we can.
    Mr. McCaul. I would highly recommend it.
    Dr. Lewis, any comment.
    Mr. Lewis. I want to take the contrary view again. Some of 
us call these weapons of mass annoyance. If we are talking in 
military terms, let's talk in military terms. I am China and I 
go to make your traffic lights blink on and off for a week or 
so. Is that going to stop the carrier battle groups from going 
to the Taiwan Straits? Is it going to reduce American military 
capabilities? Is it going to damage the American economy over 
the long term? The answer is no.
    So if you are a Chinese leader, you think I am going to do 
something, it is going to really irritate them, they will be 
mad, and I am not going to get any military benefit from it. 
And that is how I think about it.
    Now a rogue state, perhaps their calculus will be a little 
different. It is hard to predict when they are so crazy like in 
North Korea or Iran. A terrorist group probably doesn't have 
the capabilities.
    But when you look at the people who are likely to do this, 
they are asking themselves, what do I get out of it? How likely 
is it to make me better off in a conflict? And, right now, they 
don't think it is going to make them better off.
    Mr. McCaul. And I agree with you. China is all about 
espionage and intellectual property. But there are other 
organizations out there. And when teenagers can hack into 
computers, it is a little disturbing to think of the 
destruction that could be caused by someone who has this 
ability, someone who has it in the wrong hands. And I think 
when we know the terrorist's main goal is to destroy 
preliminarily our financial markets, it raises the bar.
    That is really all I have, Mr. Chairman, but I want to 
thank all the witnesses for being here today. It has been very 
insightful. Thank you.
    Mr. Langevin. The gentleman from Texas, Mr. Green, is 
recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman; and thank you for 
hosting these important meetings and hearings.
    My question has to do with punishment. What has been your 
experience in terms of persons who are caught? How are they 
punished?
    Someone gave the example of someone breaking into an 
administrative office and taking files. My suspicion is we call 
that a felony and the person would be severely punished. What 
is your experience with reference to cyber theft?
    Mr. Lewis. I have done a little research on that, and my 
experience and what I have learned from the FBI and from other 
law enforcement agencies is you are not going to be caught, and 
it is almost a risk-free crime. We don't have a good metric. It 
is true. So is it 95 percent of the people who do this escape? 
Is it closer to 100 percent? Is it a bit less? But the odds 
are, if you engage in a cyber attack, if you steal information, 
if you break into someone's network, particularly if you do it 
from overseas, it is a risk-free event.
    Mr. Green. Any other opinions? Everybody is in agreement 
that it is risk free?
    What about encoding? Is that something that we can hope to 
have some sort of safety with, some sort of encryptions for 
specific areas of security concerns?
    Mr. Geer. I can say that, in the commercial sector, 
adoption of encryption at one level or another is going about 
as fast as it can go. That is not to say it is slow. They are 
spending money like crazy to encrypt.
    The common thing that appears in the newspaper is I lost 
the laptop in the cab kind of thing or somebody broke into my 
house. That kind of thing is going as fast as it can go. I 
think that you probably will see in a matter of years nearly 
nothing that isn't encrypted, where the general counsel is 
aware that the company has it.
    Beyond that, do you want all transactions and so forth, all 
communications over the net to be encrypted? Maybe. It is not a 
be-all and an end-all. It helps.
    I think that you should remember that encryption is, 
generally speaking, no solution to the insider problem. So you 
might be able to get rid of a degree of the outsider problem, 
but you would not get rid of the insider problem by adopting 
full tilt encryption ideas.
    Mr. Saydjari. I would like to add to that.
    So encryption is a very valuable tool, particularly 
protecting information in transit. But one of our biggest 
problems is the security at the host. And, ultimately, the data 
has to be decrypted at the end machines to actually do 
something with it; and these are the places that we are most 
vulnerable. So I am a very strong advocate of getting 
encryption out there in a widespread way and making it 
available to the private sector and having it proliferate, and 
it will help. But I just want to make sure that we all 
understand that processing at the host and things like denial-
of-service attacks on the availability of those hosts are 
affected in no way by encryption.
    Mr. Maughan. I would agree with what Mr. Saydjari has said. 
Cryptography is only going to do a small amount for us in a big 
picture. There are bigger problems to our end system's 
vulnerability. Encryption is only one tool in the quiver of 
arrows that we have.
    Mr. Green. Is it fair to say that we may never be able to 
become completely secure because as we get better it seems that 
there is always a new thought or hype, idea, in terms of making 
the invulnerable vulnerable?
    A comment please. I like your smile, Dr. Geer. Let me hear 
your comment.
    Mr. Geer. No. Perfection is impossible because it involves 
dividing by zero and you can't afford the cost. This is purely 
a risk management problem.
    If you really want my car, you can probably get it. I can 
lock it in the garage, I can lock the car, et cetera, et 
cetera. The guy with a blowtorch and a tow truck and a heavy 
lift helicopter can still probably get it. I can, however, make 
my neighbor's car a lot more attractive than mine; and to a 
degree that is all that we can do here. All we can do is make 
it such that the people who want stuff that we do not want them 
to have, have to go somewhere else.
    Mr. Geer. And I know that sounds unfortunate, but I think 
that is the right mindset to have. Maybe you will have a happy 
surprise, and you do actually solve a problem on getting rid of 
smallpox or polio or something, but generally speaking, you 
cannot get rid of it. What you can do is make it harder. You 
can make them go somewhere else.
    Mr. Green. I see other smiles, so let us go with the next 
smiling face.
    Mr. Saydjari. I completely agree with Dan. I think the 
threat is always going to be escalating. There is always going 
to be higher degrees of integration of our systems and new 
capabilities in our systems that will be attackable, and one 
thing, I think, we all have to understand here is that this is 
not a one-shot investment. So, when I talk about a multi-
billion dollar program establishing a capability in 3 years, it 
is not done in 3 years. It is a sustaining investment to be 
actively engaged in the escalation that will inevitably happen 
as we have seen over the last 10 years. The level of 
sophistication of attacks has risen dramatically over the last 
10 years. The kinds of attacks we have seen in the wild are 
amazingly complex and amazingly sophisticated, and we will only 
see them get worse in terms of the level of damage they do.
    Mr. Maughan. I was only going to agree with them.
    It is a cat-and-mouse game that we are playing with the bad 
guys, and we are never going to be able to secure our systems 
100 percent, and so the best we can do, as Dr. Geer said, is 
risk management and try to defend our systems as best we can.
    Mr. Lewis. We are all in tremendous agreement here, but I 
want to put a little different cast on it, which is let us not 
think defensively. We cannot make them perfectly secure, but we 
just want to be in a position where we do better than our 
opponents. So that is a good goal. If we get more out of this 
than our opponents do, we win.
    Mr. Green. Thank you, Mr. Chairman. I yield back.
    Mr. Langevin. Thank you.
    The gentleman from North Carolina, Mr. Etheridge, is 
recognized for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman, and let me thank 
you for holding this hearing.
    Gentlemen, what we are seeing in the 21st century is going 
to be a huge challenge. Last week, before this committee, we 
heard from Federal agencies--Commerce and State--talking about 
the attacks on their systems that were unexpected, but they may 
not have even been aware of them until well after they had 
occurred, and further, even after the illegal access was 
noticed, the date and duration of attacks could not be 
determined, and the extent of information compromised may never 
be known. That is what they shared with us. So my question to 
you is:
    Is it ever possible to determine after an attack the extent 
of the damage? You know, for example, can logs be altered or 
so-called rogue tunnels be constructed to hide the nature of 
the attack? Do you agree? The answer is ``yes''? Everybody 
agrees. OK.
    So my next question is: What tools do we have available to 
us to identify the attacks, which seem to me to be critical, 
and to check the authenticity of the date so that we know when 
the attacks occurred, and to the extent we know that, how can 
we deal with it?
    Who wants to tackle that first?
    Mr. Geer. One of the hardest questions for most of us in 
the commercial sector is: If you know something is going on, 
how do you pursue it? Because it is a very fine line between 
noticing it and then somehow finding yourself engaged in a 
countermeasure. You know, do I have the right to--I was at a 
workshop 2 weeks ago, and there are a couple of other people in 
the room who were at this same workshop. If I discover what is 
called a ``robot network''--or a botnet--in my firm, if I 
discover that in my firm someone has taken over a number of 
computers and they are being used for purposes nefarious, do I 
have a right to disable that botnet? Do I have a right to 
poison the command and control system that it uses to operate? 
Do I have a right to take them off the air from where I sit?
    Now, at the moment, that is, I think, roughly equivalent 
to, ``well, if nobody knows, your general counsel would advise 
you not to,'' but in this space, there is a very fine line 
between how do you defend yourself and what somebody else will 
later charge as vigilantism.
    Mr. Etheridge. Let me interrupt you if I might.
    If, prior to the computer, my files were in file cabinets 
and you come and lift out those files and, in fact, take them 
with you, you are in trouble.
    Mr. Geer. Yes.
    Mr. Etheridge. This is the same kind of thing except you 
are doing it electronically from a remote site which may be two 
times removed.
    Mr. Geer. Yes, but the difference there is, if I steal your 
car or your files, you know they are gone. If I steal your 
data, you may not know it is gone until it is misused. So I 
have to be able to react when I discover that it is going on. 
Whether this is ``the home is the castle, and I can shoot the 
intruder or not,'' I mean, I do not know quite what to say 
here, but this is a problem. This is the fundamental problem on 
the commercial side.
    Mr. Etheridge. Please. We are looking for some R&D, some 
way we can get there because this, to me, seems to be that key 
we have got to find to either lock the lock or unlock the lock 
that we have got to get to.
    Mr. Saydjari. So I think this is partly a question of 
intrusion detection systems, and the intrusion detection 
systems that are out there today really count on the attack's 
having been seen in the wild before. They are called 
``signature-based schemes,'' and they are ineffective in the 
sense that they are after the fact, and so a majority or 
certainly a very large number of attacks that are out there are 
not visible by these kinds of mechanisms, and that is a bad 
thing, and there is research, for example, on anomaly-based 
detection schemes that can characterize normal behavior and 
then look for the abnormal behavior, which is a deviation for 
that. So there is hope on that research line.
    I will also add that the community has been using what I 
would consider ad hoc sensors, sorts of things that were not 
really designed to be sensors for the most sophisticated kinds 
of attacks like the ones that we imagine and work through in 
the dark angel campaign. So what we really need to do as a 
community is to work backwards from the kinds of attacks we are 
most worried about to the kinds of sensors that we require to 
detect those. I mean it is like, you know, if we were trying to 
detect a nuclear launch just to kind of look for, you know, 
some warm sensations from somebody nearby. I mean we cannot 
just use those kinds of off-the-shelf kinds of sensors. We 
really need to rethink the way we do sensors.
    Mr. Lewis. Let me offer you a suggestion that is maybe a 
little less expensive and will not cost as much money.
    One of the problems that I think we have seen is sometimes 
there is knowledge in the national security communities and the 
national security agencies like defense or the intelligence 
community that does not get shared or does not get shared 
promptly or adequately with the civilian agencies. That might 
be an interesting thing for you to look at. So, if DOD figures 
out there is a problem, how does that percolate through the 
rest of the Federal system?
    Mr. Etheridge. How do we get out of the tunnels and start 
sharing at the highest level?
    Mr. Lewis. Exactly. So better coordination, better 
information--sharing, breaking that firewall between, say, some 
of the national security folks. That would help.
    The other thing that would help would be better network 
hygiene for lack of a better term. Now, that will not solve the 
problem, but it will reduce the number of incidents, and what 
you have got is some network administrators do a great job; 
other network administrators do not do as good a job. How do 
you get them all up to the a basic level? We have seen some 
cases where, at NASA or at DOD, grabbing the low-hanging fruit 
has significantly reduced the number of incidents. The systems 
are not secure. People are still intruding, but it is at a much 
lower level.
    Mr. Saydjari. If I could extend my remarks at one more 
level, a colleague of mine who is an expert in the power system 
advises me that, if we had an attack on our power control 
systems, we would never know it because there are no intrusion 
detection systems within those networks. So, when Dr. Lewis 
talks about the focus on the networks that are connected, I 
will tell you that every network is connected to every other 
network in some way, shape or fashion, whether it is through 
software development or actual connections, and so those 
networks are just as likely to be attacked. Well, of course, 
you need some insiders or you need some malicious software, but 
you can attack those networks, and those networks which are 
controlling our most critical assets are least sensored. That 
is a very bad thing that needs to change immediately.
    Mr. Geer. I like numbers. Can I give you a couple?
    Mr. Etheridge. Please.
    Mr. Geer. For average desktop machines--I am not talking 
about, for example, the power grid. For average desktop 
machines, my own calculation is that about 30 percent of them 
have something unwanted running on them. Vent Surf says 40 
percent; Microsoft says two-thirds; IDC says three-quarters. So 
it is not like we are trying to preserve innocence. It is a 
little harder.
    Mr. Etheridge. Yes. Well, you have scared me to death. 
Thank you.
    Mr. Langevin. Well, gentlemen, I want to thank you for your 
testimony today. You, obviously, addressed and raised some very 
sobering and very serious issues, and we obviously have a lot 
of work to do. We look forward to speaking with you further.
    I am sure that other members of the committee, myself 
included, will have additional questions that we might want to 
pose to you, and we ask that you respond, if you would, in an 
expeditious manner. If you could help us with that, we would be 
very grateful and would much appreciate it. Thank you very 
much, and I want to thank the witnesses for their testimony.
    Hearing no further business before the subcommittee, the 
subcommittee is adjourned.
    [Whereupon, at 2:20 p.m., the subcommittee was adjourned.]


                       Appendix I: For the Record

                              ----------                              


   Prepared Statement of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

    <bullet> I thank the Chairman for holding another important hearing 
on cybersecurity.
    <bullet> It is clear that our government, working together with the 
private sector and academia, must do more to ensure that cybersecurity 
is a priority in our nation's homeland security strategy.
    <bullet> In 1996, the United States government undertook the first 
national effort to secure our networks.
    <bullet> Unfortunately, I don't believe that we are any further 
along today in our efforts to secure cyberspace.
    <bullet> Programs and initiatives that were developed over the past 
ten years have been dismantled and, in certain instances, are just now 
being re-created by the government.
    <bullet> We heard in last week's hearing that ``coordinating better 
cyber security practices across the Federal government'' is one of 
Secretary Chertoff's ``highest priorities.''
    <bullet> But this rings hollow to me when I think about how long it 
took him to appoint an Assistant Secretary for Cybersecurity.
    <bullet> I also wonder why the Secretary believes that the 
Department will be able to coordinate better cyber security practices 
across the Federal government, when his own Chief Information Officer 
just received a ``D'' in the recent FISMA grades.
    <bullet> So we have a lot of work to do, but fortunately we have 
some very capable people who can help.
    <bullet> I thank the witnesses for being here today and for their 
commitment to helping the Federal government move this issue in the 
right direction.
    <bullet> Thank you Mr. Chairman.
  Appendix II: Selected Major Reports on Cyber Security Research and 
                              Development

                              ----------                              

Biometric Research Agenda: Report of the NSF Workshop. Morgantown, West 
Virginia, April/May 2003, http://64.233.167.104/
search?q=cache:xweu9dx2qMsJ:www.
wvu.edu/bknc/
BiometricResearchAgenda.pdf+Biometric+Research+Agenda:+Report+
of+the+NSF+Workshop&hl=en&ct=clnk&cd=3&gl=us.

Coordination of Federal Cyber Security Research and Development, U.S 
Government Accountability Office, GAO-06-811, Sept. 2006, http://
www.gao.gov/new.items/d06811.pdf.

Creating a National Framework for Cybersecurity: An Analysis of Issues 
and Options, Eric A. Fischer, Congressional Research Service, Feb. 22, 
2005, http://www.au.af.mil/au/awc/awcgate/crs/rl32777.pdf.

Critical Foundations: Protecting America's Infrastructures. President's 
Commission on Critical Infrastructure Protection, October 1997,
www.fas.org/sgp/library/pccip.pdf.
Critical Information Infrastructure Protection and the Law: An Overview 
of Key Issues. Computer Science and Telecommunications Board, National 
Research Council, 2003, http://www.cstb.org/pub_ciip.html.

Critical Infrastructure: Challenges Remain in Protecting Key Sectors, 
Testimony of Eileen R. Larence, Director, Homeland Security and Justice 
Issues, and David A. Powner, Director, Information Technology 
Management Issues, Before the Subcommittee on Homeland Security, 
Committee on Appropriations, House of Representatives, U.S. Government 
Accountability Office, GAO-07-626T, March 20, 2007, http://www.gao.gov/
new.items/d07626t.pdf.

Critical Infrastructure Protection: Challenges and Efforts to Secure 
Control Systems, Testimony of Robert F. Dacey, Director, Information 
Security Issues, Before the Subcommittee on Technology Information 
Policy, Intergovernmental Relations and the Census, House Committee on 
Government Reform, U.S. Government Accountability Office, GAO-04-628T, 
March 30, 2004, http://www.gao.gov/new.items/d04628t.pdf.

Critical Infrastructure Protection: Challenges in Addressing 
Cybersecurity, Testimony of David A. Powner, Director Information 
Technology Management Issues, Before the Subcommittee on Federal 
Financial Management, Government Information, and International 
Security, Senate Committee on Homeland Security and Governmental 
Affairs, U.S. Government Accountability Office, GAO-05-827T, July 19, 
2005, http://www.gao.gov/new.items/d05827t.pdf.

Cyber Security Research and Development Agenda. I3P, Dartmouth College, 
January 2003, http://www.thei3p.org/repository/
2003_Cyber_Security_RD_Agenda.pdf.

Electronic Crime Needs Assessment for State and Local Law Enforcement, 
National Institute of Justice Research Report, March 2001, http://
www.ncjrs.org/pdffiles1/nij/186276.pdf.

Embedded, Everywhere: A Research Agenda for Networked Systems of 
Embedded Computers. Computer Science and Telecommunications 
Board,National Research Council, 2001, http://
www7.nationalacademies.org/cstb/pub_embedded.html.

Hard Problems List. Infosec Research Council. September 1999 (and draft 
revision as of September 2004) Information Technology Research for 
Crisis Management. Computer Science and Telecommunications Board, 
National Research Council, 1999, http://www7.nationalacademies.org/
cstb/pub_crisismanagement.html.

High Confidence Software and Systems Research Needs. High Confidence 
Software and Systems Coordinating Group, Interagency Working Group 
onInformation Technology Research and Development, January 2001, http:/
/www.nitrd.gov/pubs/hcss-research.pdf.

IDs-Not That Easy. Questions About Nationwide Identity Systems. 
Computer Science and Telecommunications Board, National Research 
Council, 2002, http://www7.nationalacademies.org/cstb/
pub_nationwideidentity.html.

Information Sharing/Critical Infrastructure Protection Task Force 
Report, National Security Telecommunications Advisory Committee, May 
2000,
http://www.ncs.gov/nstac/reports/2000/ISCIP-Final.pdf.

Information Technology for Counterterrorism. Computer Science 
andTelecommunications Board, National Research Council, 2003, http://
www7.nationalacademies.org/cstb/pub_counterterrorism.html.

Insider Threat Study: Computer System Sabotage in Critical 
Infrastructure Sectors, Michelle Keeney, Dawn Cappelli, et al, Carnegie 
Mellon Software Engineering Institute, May 2005, http://www.cert.org/
cert/work/organizational_security.html.

Internet Domain Names: Background and Policy Issues, Lennard G. Kruger, 
Congressional Research Service, Sept. 22, 2005, http://www.au.af.mil/
au/awc/awcgate/crs/97-868.pdf.

The Internet Under Crisis Conditions: Learning from September 11. 
Computer Science and Telecommunications Board, National 
ResearchCouncil, 2003, http://www7.nationalacademies.org/cstb/
pub_internet911.html.

National Security Telecommunications Advisory Committee, Research and 
Development Exchange Workshop, Atlanta, Georgia, March 2003, http://
www.ncs.gov/nstac/rd/nstac_03_bos.html.

National Security Telecommunications Advisory Committee, Research 
andDevelopment Exchange Workshop. Tulsa, Oklahoma, September 2000, 
http://www.ncs.gov/nstac/reports/2001/R&D_Exchange2000Proceedings.htm.

National Security Telecommunications Advisory Committee, Research and 
Development Exchange Workshop. West Lafayette, Indiana, October 1998, 
http://www.ncs.gov/nstac/reports/1998/R&DExchange.pdf.

National Strategy to Secure Cyberspace, The White House, February 2003, 
http://www.whitehouse.gov/pcipb/.

Protecting Systems Task Force Report on Enhancing the Nation's Security 
Efforts, National Security Telecommunications Advisory Committee, May 
2000,
http://64.233.167.104/search?q=cache:JkJUKZ9OmYsJ:www.ncs.gov/nstac/
reports/2000/PSTF-Final.pdf+Protecting+Systems+Task+Force+Report+on+
Enhancing+the+Nation%E2%80%99s+Security+Efforts,+National+Security+
Telecommunications+Advisory+Committee,+May+2000,&hl=en&ct=clnk&
cd=1&gl=us.

Robust Cyber Defense. Study commissioned for DARPA ITO, Fall 2001. 
Slides available at:
http://www.cs.cornell.edu/fbs/darpa.RobustCyberDefense.ppt.

Technology Assessment: Cybersecurity for Critical Infrastructure 
Protection, U.S. Government Accountability Office, GAO-04-321, May 
2004, http://www.gao.gov/new.items/d04321.pdf.

Trust in Cyberspace. Computer Science and Telecommunications 
Board,National Research Council, 1999, http://books.nap.edu/
readingroom/books/trust/.

    Understanding the Insider Threat, Richard C. Brackney, Robert H. 
Anderson, Conference Proceedings of a March 2004 Workshop, RAND, 
National Security Division, http://www.rand.org/pubs/conf_proceedings
/2005/RAND_CF196.pdf.

Who Goes There? Authentication Through the Lens of Privacy. Computer 
Science and Telecommunications Board, National Research Council, 2003, 
http://www7.nationalacademies.org/cstb/pub_authentication.html.

Workshop on Scalable Cyber-Security Challenges in Large-Scale Networks: 
Deployment Obstacles. Large Scale Networking Coordinating Group,NITRD, 
Landsdowne, Virginia, March 2003, http://64.233.167.104/
search?q=cache:mWKvtoq--xLoJ:cs.
yale.edu/homes/jf/LSN-report.pdf+Workshop+on+Scalable+Cyber-Security+
Challenges+in+Large-Scale+Networks:&hl=en&ct=clnk&cd=1&gl=us.

                                 <all>

</pre></body></html>
